APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Order in the United States Court of
Appeals for the Tenth Circuit Denying
Rehearing, No. 18-9520
(April 2, 2019) . . . . . . . . . . . . . . . . App. 1
Appendix B Opinion and Judgment in the United
States Court of Appeals for the Tenth
Circuit, No. 18-9520
(March 5, 2019) . . . . . . . . . . . . . . . App. 3
Appendix C Decision and Order of the U.S.
Department of Labor, Benefits Review
Board, BRB No. 17-0323 BLA
(March 29, 2018) . . . . . . . . . . . . . App. 55
Appendix D Decision and Order Awarding Benefits
of the U.S. Department of Labor,
Office of Administrative Law Judges,
Case No. 2014-BLA-05171
(February 28, 2017) . . . . . . . . . . App. 78
Appendix E Order Denying Employer’s Motion to
Withdraw Stipulation as Responsible
Operator and to Dismiss Hidden
Splendor as the Responsible Operator
and Supplemental Evidentiary Order
and Briefing Schedule of the U.S.
Department of Labor, Office of
Administrative Law Judges, Case No.
2014-BLA-05171
(April 12, 2016) . . . . . . . . . . . . . App. 124

ii
Appendix F 20 C.F.R. §725.101(a)(32) . . . . .
20 C.F.R. §725.408 . . . . . . . . . .
20 C.F.R. §725.410(b) . . . . . . . .
20 C.F.R. §725.412 . . . . . . . . . .
20 C.F.R. §725.414(b) . . . . . . . .
20 C.F.R. §725.463 . . . . . . . . . .
20 C.F.R. §725.495 . . . . . . . . . .

App. 131
App. 133
App. 134
App. 134
App. 135
App. 136
App. 137

Appendix G Facsimile of Hidden Splendor Staff
Accountant
(February 6, 2013) . . . . . . . . . . App. 141
Appendix H Pulmonary Function Study Testing
Results
(May 6, 2010). . . . . . . . . . . . . . . App. 143
Appendix I Arterial Blood Gas Testing Results
(August 23, 2012) . . . . . . . . . . . App. 144
Appendix J Notice of Hearing to Hidden Splendor
(October 23, 2012) . . . . . . . . . . . App. 145
Appendix K Pulmonary Function Study Testing
Results
(August 23, 2012) . . . . . . . . . . . App. 150

App. 1

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
No. 18-9520
[Filed April 2, 2019]
________________________________
ROCKWOOD CASUALTY
)
INSURANCE COMPANY,
)
insurer of Hidden Splendor
)
Resources, Inc.,
)
)
Petitioner,
)
)
v.
)
)
DIRECTOR, OFFICE OF
)
WORKERS’ COMPENSATION
)
PROGRAMS, UNITED STATES )
DEPARTMENT OF LABOR, et al., )
)
Respondents.
)
________________________________ )
ORDER
_________________________________
Before BRISCOE, MATHESON, and BACHARACH,
Circuit Judges.
_________________________________
Petitioner’s petition for rehearing is denied.

App. 2
Entered for the Court
/s/Elisabeth A. Shumaker
ELISABETH A. SHUMAKER, Clerk

App. 3

APPENDIX B
PUBLISH
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
No. 18-9520
[Filed March 5, 2019]
________________________________
ROCKWOOD CASUALTY
)
INSURANCE COMPANY,
)
insurer of Hidden Splendor
)
Resources, Inc.,
)
)
Petitioner,
)
)
v.
)
)
DIRECTOR, OFFICE OF
)
WORKERS’ COMPENSATION
)
PROGRAMS, UNITED STATES )
DEPARTMENT OF LABOR;
)
TONY KOURIANOS,
)
)
Respondents.
)
________________________________ )
Petition for Review from an Order
of the Benefits Review Board
(Benefits No. 17-0323 BLA)
_________________________________

App. 4
Cheryl L. Intravaia, Feirich/Mager/Green/Ryan,
Carbondale, Illinois, for Petitioner.
Victoria S. Herman (Joseph E. Wolfe, with her on the
brief), Wolfe Williams & Reynolds, Norton, Virginia, for
Tony N. Kourianos, Respondent.
William M. Bush (Kate S. O’Scannlain, Solicitor of
Labor, Kevin Lyskowski, Associate Solicitor, Gary K.
Stearman, Counsel for Appellate Litigation, and Rita
A. Roppolo, Attorney, on the brief), U.S. Department of
Labor, Washington, D.C., for Director, Office of
Workers’ Compensation Programs, Respondent.
_________________________________
Before BRISCOE, MATHESON, and BACHARACH,
Circuit Judges.
_________________________________
MATHESON, Circuit Judge.
_________________________________
Congress enacted the Black Lung Benefits Act
(“BLBA”), 30 U.S.C. §§ 901-944, in 1969 to compensate
miners with pneumoconiosis, commonly known as
“black lung disease.” Antelope Coal Co./Rio Tinto
Energy Am. v. Goodin, 743 F.3d 1331, 1335 (10th Cir.
2014). The BLBA provides benefits to coal miners who
become totally disabled from pneumoconiosis caused by
their mining work. Id.
Tony N. Kourianos worked as a coal miner for more
than 27 years before filing a claim for benefits under
the BLBA. His claim was reviewed through a threetiered administrative process. Ultimately, the Benefits
Review Board (“BRB”) found that he was entitled to
benefits. The BRB also found that Mr. Kourianos’s last

App. 5
employer, Hidden Splendor Resources, Inc. (“Hidden
Splendor”), was the “responsible operator” liable for
paying those benefits. Hidden Splendor’s insurer,
Rockwood Casualty Insurance Company (“Rockwood”),
petitions this court for review of the BRB’s decision.
Along with Mr. Kourianos, the Director of the Office of
Workers’ Compensation Programs (“OWCP” or
“Director”) is a respondent in this case. See 20 C.F.R.
§ 725.360(a)(5) (stating that the Director will be a party
“in all proceedings relating to a claim for benefits”).
Rockwood challenges the BRB’s decision on two
grounds. First, it argues the BRB incorrectly affirmed
the administrative law judge’s (“ALJ”) decision
prohibiting Hidden Splendor from withdrawing its
responsible operator stipulation. Second, it argues the
BRB incorrectly found that Mr. Kourianos was totally
disabled and entitled to benefits.
Exercising jurisdiction under 30 U.S.C. § 932(a) and
33 U.S.C. § 921(c), we deny Rockwood’s petition.
I. BACKGROUND
We describe the legal framework governing Mr.
Kourianos’s claim for benefits and then recount the
specific factual and procedural history of his case.
A. Legal Background
A claim for BLBA benefits contemplates two critical
questions. First, which operator is responsible for
paying benefits under the BLBA? Second, is the
claimant entitled to benefits under the Act? The
following presents the law applicable to these two

App. 6
questions and the Department of Labor’s three-tiered
administrative process for deciding BLBA claims.
1. The Responsible Operator Determination
The BLBA provides that individual coal mine
operators are liable for a miner’s benefits if the miner’s
disability or death arose “at least in part” from coal
mine employment with the operator. 30 U.S.C. § 932(c);
20 C.F.R. § 725.494(a).1 To ensure coal mine operators
can pay their miners’ benefits, Congress imposed
workers’ compensation insurance requirements on
them. 30 U.S.C. § 933(a); 20 C.F.R. § 726.1. As a
fallback alternative, Congress created the Black Lung
Disability Trust Fund, which assumes liability for
miners’ benefits if “there is no operator who is liable for
the payment of such benefits.” 26 U.S.C.
§ 9501(d)(1)(B).
To implement the BLBA, Congress directed the
Department of Labor to promulgate regulations “for
determining whether pneumoconiosis arose out of
employment in a particular coal mine or mines.” 30
U.S.C. § 932(h). Under the regulations, a coal mine
operator is a “potentially liable operator” if (i) the
miner’s disability or death arose out of employment
with the operator; (ii) the entity was an operator after
1

Because Mr. Kourianos filed his claim after January 19, 2001, the
current version of the BLBA regulations apply to his claim. 20
C.F.R. § 725.2 (“This part applies to all claims filed after January
19, 2001 and all benefits payments made on such claims.”); see
Antelope Coal, 743 F.3d at 1341-42 (holding that 2013
amendments to BLBA regulations applied retroactively to claim
filed before amendments were promulgated); see also Consolidation
Coal Co. v. Dir., OWCP, 864 F.3d 1142, 1151 (10th Cir. 2017).

App. 7
June 30, 1973; (iii) the miner worked for the operator
for at least one year; (iv) the miner’s employment with
the operator included at least one working day after
December 31, 1969; and (v) the operator is financially
capable of assuming liability for the claim. 20 C.F.R.
§ 725.494(a)-(e). The regulations state that the
“operator responsible for the payment of benefits . . .
shall be the potentially liable operator . . . that most
recently employed the miner.” Id. § 725.495(a)(1).
The BLBA defines a miner as “any individual who
works or has worked in or around a coal mine or coal
preparation facility in the extraction or preparation of
coal.” 30 U.S.C. § 902(d); see also 20 C.F.R.
§ 725.202(a). To meet the statutory definition of a
“miner,” the claimant must establish that he or she (1)
worked “in or around a statutorily defined coal mine
(the ‘situs’ test),” and (2) performed “duties involv[ing]
the extraction or preparation of coal, or involv[ing]
appropriate coal mine construction or transportation
(the ‘function’ test).” Falcon Coal Co. v. Clemons, 873
F.2d 916, 921 (6th Cir. 1989) (citing 30 U.S.C.
§ 802(h)(2) and surveying case law).2
In sum, under the BLBA, the responsible operator
is the last coal mine operator to have employed the
claimant as a “miner” for more than one year. 20 C.F.R.
§§ 725.494(c), 725.495(a)(1).

2

We applied the “situs” and “function” tests in Wackenhut Corp. v.
Hansen ex rel. Hansen, 560 F. App’x 747, 750 (10th Cir. 2014)
(unpublished) (cited for persuasive value under Fed. R. App. P.
32.1, 10th Cir. R. 32.1).

App. 8
2. The Benefits Determination
To obtain benefits under the BLBA, a claimant
must prove
(1)

he or she suffers from pneumoconiosis
(disease),

(2)

the pneumoconiosis arose out of coal
mining employment (disease
causation),

(3)

he or she is totally disabled due to a
respiratory or pulmonary impairment
(disability), and

(4)

pneumoconiosis is a substantially
contributing cause of the total
disability (disability causation).

Energy W. Mining Co. v. Estate of Blackburn, 857 F.3d
817, 822 (10th Cir. 2017); see also 30 U.S.C. §§ 902,
921; 20 C.F.R. §§ 725.202(d)(2), 718.204(c)(1).
Below, we discuss four additional aspects of a BLBA
claim: (a) the “15-year presumption,” (b) the difference
between clinical and legal pneumoconiosis, (c) the 10year presumption and the disease causation element,
and (d) the showing necessary to demonstrate a “total
disability.”
a. The 15-year presumption and rebuttal
The BLBA created a rebuttable “presumption that
a miner is disabled due to pneumoconiosis when he or
she has worked for 15 years in underground coal mines
or substantially similar conditions and is totally

App. 9
disabled from a respiratory or pulmonary condition (the
‘15-year presumption’).” Antelope Coal, 743 F.3d at
1335; see 30 U.S.C. § 921(c)(4). “In other words, a miner
who proves 15 years of coal mine work and total
disability is entitled to a presumption that the
remaining elements of his claim are established.”
Antelope Coal, 743 F.3d at 1335; see Blackburn, 857
F.3d at 822 (stating that a claimant’s burden is
“soften[ed]” when he has worked for at least 15 years
as a miner).
The party opposing an award of benefits under the
BLBA may rebut the 15-year presumption by
establishing that (1) the claimant does not have
pneumoconiosis or (2) pneumoconiosis did not cause
any part of the miner’s respiratory or pulmonary total
disability. 20 C.F.R. § 718.305(d). In other words, once
a claimant establishes the 15-year presumption, the
operator must rebut the existence of (1) the disease, or
(2) the disease or disability causation. Blackburn, 857
F.3d at 822. “The presumption must not be considered
rebutted on the basis of evidence demonstrating the
existence of a totally disabling obstructive respiratory
or pulmonary disease of unknown origin.” 20 C.F.R.
§ 718.305(d).
b. Clinical and legal pneumoconiosis
“The BLBA recognizes two types of pneumoconiosis:
clinical and legal.” Antelope Coal, 743 F.3d at 1335. The
15-year presumption applies to both classifications of
the disease. Consolidation Coal Co. v. Dir., OWCP, 864
F.3d 1142, 1144 (10th Cir. 2017).

App. 10
Clinical pneumoconiosis refers to diseases the
medical community has recognized as pneumoconiosis,
including “conditions characterized by . . . the fibrotic
reaction of the lung tissue to . . . deposition [of
particulate matter] caused by dust exposure in coal
mine employment.” 20 C.F.R. § 718.201(a)(1).
Legal pneumoconiosis, on the other hand, is defined
as any “chronic dust disease of the lung and its
sequelae, including respiratory and pulmonary
impairments, arising out of coal mine employment.” 30
U.S.C. § 902(b); see 20 C.F.R. § 718.201(a)(2) (“This
definition includes, but is not limited to, any chronic
restrictive or obstructive pulmonary disease arising out
of coal mine employment.”). To show legal
pneumoconiosis, a claimant therefore “must satisfy
both the Disease and Disease causation elements” of a
BLBA claim. Blackburn, 857 F.3d 817. Legal
pneumoconiosis encompasses “a broader class of lung
diseases that are not pneumoconiosis as the term is
used by the medical community.” Andersen v. Dir.,
OWCP, 455 F.3d 1102, 1104 (10th Cir. 2006). In other
words, a claimant may have legal pneumoconiosis
without ever receiving a formal medical diagnosis of
“pneumoconiosis.” See id.
c. The 10-year presumption and disease causation
The 15-year presumption establishes the second
element of a BLBA claim—the pneumoconiosis arose
out of coal mining employment. See Blackburn, 857
F.3d at 822. The second element also may be
established under the BLBA’s 10-year presumption.
See 30 U.S.C. § 921(c)(1).

App. 11
“Arising out of coal mine employment” means the
relevant lung disease or impairment is “significantly
related to, or substantially aggravated by, dust
exposure in coal mine employment.” 20 C.F.R.
§ 718.201(b). “If a miner who is suffering or suffered
from pneumoconiosis was employed for ten years or
more in one or more coal mines there shall be a
rebuttable presumption that his pneumoconiosis arose
out of such employment.” 30 U.S.C. § 921(c)(1); see 20
C.F.R. § 718.203(b). The 10-year presumption overlaps
with the 15-year presumption because both
presumptions shift the burden to the employer to
submit evidence to disprove that a claimant’s
pneumoconiosis arose out of coal mine employment.
Because the 15-year presumption addresses the
element of disability causation in addition to disease
causation, however, the 10-year presumption is
effectively subsumed by the 15-year presumption.
d. Total disability
One of the elements to establish the 15-year
presumption is proof of total disability from a
respiratory or pulmonary condition. A miner is
considered “totally disabled” if he or she has “a
pulmonary or respiratory impairment which,” on its
own, prevents the miner from (i) “performing his or her
usual coal mine work” and (ii) “engaging in gainful
employment in the immediate area of his or her
residence requiring the skills or abilities comparable to
those of any employment in a mine or mines in which
he or she previously engaged with some regularity over
a substantial period of time.” 20 C.F.R. § 718.204(b)(1).

App. 12
The BLBA regulations provide that a miner can
qualify for a total disability determination by
submitting evidence from (1) pulmonary function tests,
(2) arterial blood gas tests, or (3) medical evidence of
right-side congestive heart failure. 20 C.F.R.
§ 718.204(b). In addition, when total disability cannot
be shown by these three categories of testing, the
regulations provide that “total disability may
nevertheless be found if a physician exercising
reasoned medical judgment, based on medically
acceptable clinical and laboratory diagnostic
techniques, concludes that a miner’s respiratory or
pulmonary condition prevents . . . the miner from
engaging in [the claimant’s usual] employment.” 20
C.F.R. § 718.204(b)(2). Arterial blood gas studies and
medical opinions provide the key evidence of
“impairment” in this case.
The BLBA regulations provide standards for
evaluating arterial blood gas studies. See 20 C.F.R. pt.
718, App. C. These standards are depicted in “Appendix
C,” which “contains three tables of ‘qualifying’ values
for arterial-blood gas studies . . . . A test that produces
‘qualifying’ values is deemed, in the absence of contrary
evidence, indicative of a totally disabling respiratory or
pulmonary impairment.” Regulations Implementing
the Byrd Amendments to the Black Lung Benefits Act:
Determining Coal Miners’ and Survivors’ Entitlement
to Benefits, 77 Fed. Reg. 19456, 19464 (Mar. 30, 2012).
Appendix C incorporates three categories of data:
(1) the altitude at which the test was taken, (2) a
partial pressure of oxygen (“PO2”) reading, and (3) a
partial pressure of carbon dioxide (“PCO2”) reading.

App. 13
See 20 C.F.R. pt. 718, App. C. First, Appendix C
consists of three charts, each based on a different
altitude range and each with a different set of PO2 and
PCO2 values: (1) 0 to 2,999; (2) 3,000 to 5,999; and
(3) 6,000 or more feet above sea level. Id. Second,
Appendix C compares the blood’s carbon dioxide
pressure levels (PCO2) with the oxygen pressure levels
(PO2) to determine how fast the subject’s lungs are
producing oxygen. See id.; Suppl. App. 17-18. Third, at
each PCO2 reading in the chart, Appendix C sets a
“qualifying” PO2 value, below which the miner will be
deemed impaired in the absence of contrary evidence.
Id. For example, in the 3,000-to-5,999-foot altitude
range, a claimant with a PCO2 level of 26 would
qualify as “impaired” if his or her PO2 level was 69 or
lower. We reproduce the chart for the 3,000-to-5,999
category below:
(2) For arterial blood-gas studies
performed at test sites 3,000 to 5,999 feet
above sea level:

Arterial PCO2 (mm Hg)
25 or below . . . . . . . . . . . . . . . .
26. . . . . . . . . . . . . . . . . . . . . . . .
27. . . . . . . . . . . . . . . . . . . . . . . .
28. . . . . . . . . . . . . . . . . . . . . . . .
29. . . . . . . . . . . . . . . . . . . . . . . .
30. . . . . . . . . . . . . . . . . . . . . . . .

Arterial PO2
equal to or
less than
(mm Hg)
70
69
68
67
66
65

App. 14
31. . . . . . . . . . . . . . . . . . . . . . . .
32. . . . . . . . . . . . . . . . . . . . . . . .
33. . . . . . . . . . . . . . . . . . . . . . . .
34. . . . . . . . . . . . . . . . . . . . . . . .
35. . . . . . . . . . . . . . . . . . . . . . . .
36. . . . . . . . . . . . . . . . . . . . . . . .
37. . . . . . . . . . . . . . . . . . . . . . . .
38. . . . . . . . . . . . . . . . . . . . . . . .
39. . . . . . . . . . . . . . . . . . . . . . . .
40-49 . . . . . . . . . . . . . . . . . . . . .
Above 50 . . . . . . . . . . . . . . . . . .
2
Any value.

64
63
62
61
60
59
58
57
56
55
(2)

20 C.F.R. Pt. 718, App. C.
3. Procedures for Claims Under the BLBA
Claims under the BLBA are subject to three levels
of administrative review.3 First, the OWCP district
director4 receives and develops documentary evidence
and issues a proposed decision and order (“PDO”)
regarding benefits and liability. 20 C.F.R. §§ 725.414,
725.418. Second, if a party wishes to challenge the
PDO, it may request a hearing before an ALJ who

3

The Secretary of Labor has a discretionary right to undertake a
fourth level of review, but he did not do so here. See 20 C.F.R.
§ 726.317(a).

4

The “district director” should not be confused with the Director
of OWCP, the Department of Labor official charged with
administering the BLBA program. See 20 C.F.R. § 1.1(a).

App. 15
reviews evidence—including oral testimony—and
issues a “decision and order.” Id. §§ 725.419(a),
725.476. Third, a party dissatisfied with the ALJ’s
decision may appeal to the BRB, which reviews the
hearing record for error and issues its own decision. 33
U.S.C. § 921(b)(3); 20 C.F.R. § 725.481. Aggrieved
parties-in-interest may appeal BRB orders to an
appropriate circuit court. See 33 U.S.C. § 921(c); 30
U.S.C. § 932(a); 20 C.F.R. § 725.482.
a. District director review
Once a miner files a claim for benefits under the
BLBA, the OWCP district director investigates the
claim and determines whether one or more operators
are potentially liable. 20 C.F.R. § 725.407(a). The
district director then notifies each potentially liable
operator of the claim and sends “a copy of the
claimant’s application and a copy of all evidence
obtained by the district director relating to the miner’s
employment.” Id. § 725.407(c).
Each notified operator has 30 days to accept or
contest its designation as a potentially liable operator.
Id. § 725.408(a)(1). “If the operator contests its
identification, it shall . . . state the precise nature of its
disagreement” in its response. Id. § 725.408(a)(2). The
operator may submit documentary evidence in support
of its disagreement within 90 days of receiving the
OWCP notice. Id. § 725.408(b)(1). The regulations
further provide, “No documentary evidence relevant to
[the operator’s potential liability] may be admitted in
any further proceedings unless it is submitted within”
the 90-day time limit. Id. § 725.408(b)(2).

App. 16
After receiving a potentially liable operator’s
response, the district director develops and reviews the
relevant medical evidence and issues a “schedule for
the submission of additional evidence” (“SSAE”), which
includes a preliminary determination of the miner’s
entitlement to benefits. Id. § 725.410(a). The SSAE also
states which of the potentially liable operators has
been identified as the responsible operator for the
claim. Id. § 725.410(a)(3). Once identified, the
designated responsible operator has 30 days to accept
or contest its designation. Id. § 725.412(a)(1). If the
operator accepts its responsible operator designation or
fails to file a timely response, the operator “shall be
deemed to have accepted the district director’s
designation with respect to its liability, and to have
waived its right to contest its liability in any further
proceeding conducted with respect to the claim.” Id.
§ 725.412(a)(2).
At the end of this initial level of proceedings, the
district director makes a final recommendation of
entitlement to benefits, designates the responsible
operator, and issues a written proposed decision and
order (“PDO”). 20 C.F.R. § 725.418(d). When it issues
the PDO, the district director must “dismiss, as parties
to the claim, all other potentially liable operators.” Id.
b. Administrative law judge proceedings
Parties-in-interest who wish to contest a PDO’s
findings or conclusions may request a hearing before an
ALJ. Id. § 725.419(a). Upon receiving a party’s request,
the district director refers the case to the Office of
Administrative Law Judges. Id. An ALJ then holds a
formal hearing and may take oral testimony. Id.

App. 17
§ 725.455. With one exception not relevant here, “[t]he
district director may not notify additional operators of
their potential liability after a case has been referred to
the Office of Administrative Law Judges.” Id.
§ 725.407(d).
“Except as otherwise provided in this section, the
hearing shall be confined to those contested issues
which have been identified by the district director or
any other issue raised in writing before the district
director.” Id. § 725.463(a) (citation omitted). One
exception is critical here:
An administrative law judge may consider a
new issue only if such issue was not
reasonably ascertainable by the parties at the
time the claim was before the district director.
Such new issue may be raised upon
application of any party, or upon an
administrative law judge’s own motion, with
notice to all parties, at any time after a claim
has been transmitted by the district director
to the Office of Administrative Law Judges
and prior to decision by an administrative
law judge. If a new issue is raised, the
administrative law judge may, in his or her
discretion, either remand the case to the
district director with instructions for further
proceedings, hear and resolve the new issue,
or refuse to consider such new issue.
20 C.F.R. § 725.463(b) (emphasis added).
After the hearing, the ALJ issues a decision and
order resolving the claim. Id. § 725.476.

App. 18
c. Proceedings before the BRB
“Any party dissatisfied with a decision and order
issued by an [ALJ] may . . . appeal the decision and
order to the [BRB.]” Id. § 725.481. The BRB does not
receive new evidence. 33 U.S.C. § 921(b)(3); 20 C.F.R.
§ 802.301(b). Instead, a panel of three ALJs considers
the record and issues a decision. See 20 C.F.R.
§§ 802.301-802.309. The panel may hold oral argument,
but it need not do so. Id. § 802.304. The Secretary of
Labor has discretion to review the BRB’s decisions. Id.
§ 726.317(a).
B. Procedural History
In 2012, Mr. Kourianos’s claim started making its
way through the three-tiered administrative review
outlined above.
1. Proceedings
Director

Before

the

OWCP

District

After receiving the claim, the OWCP district
director used Mr. Kourianos’s Social Security earnings
report to identify two potentially liable operators:
Hidden Splendor and West Ridge Resources, Inc.
Suppl. App. at 47-52.5 The district director then sent
each potentially liable operator a “Notice of Claim.” Id.
Hidden Splendor initially denied it was the responsible

5

The Government filed a Supplemental Appendix (“Suppl. App.”)
containing the key documents from the administrative review
process. Within the administrative record, we cite the director’s
exhibits as “DX” and the Employer’s (Rockwood/Hidden Splendor’s)
exhibits as “EX.” We cite the transcript of the ALJ’s hearing as
“ALJ Hrg. Tr.”

App. 19
operator, arguing that it employed Mr. Kourianos as a
miner for less than one year. Approximately one month
after its initial response, however, Hidden Splendor
filed an amended response admitting that it was “the
responsible operator within the meaning of the
[BLBA].” Id. at 58.
On February 6, 2013, approximately three months
after its amended response, a Hidden Splendor “senior
staff accountant” faxed the district director a document
with the heading “Hire Dates for Tony Kourianos.” Id.
at 46. The one-page document listed three periods of
employment for Mr. Kourianos: (1) “December 26, 2006
to April 11, 2007 – In the Mine”; (2) “November 16,
2010 to January 21, 2011 – In the Mine”; and (3) “April
5, 2011 to October 14, 2011 – Outside at the Loadout.”
Id.
After reviewing the documentary evidence, the
district director issued an SSAE, which made the
following preliminary conclusions: (1) Mr. Kourianos
“would be entitled to benefits if [the district director]
issued a decision at this time,” and (2) Hidden Splendor
“is the responsible operator liable for the payment of
benefits.” Id. at 60. Hidden Splendor responded to the
SSAE, stating, “You will find Hidden Splendor has
accepted the designation of Responsible Operator but
contests Claimant’s entitlement for benefits.” Id. at 73.
The district director then issued its PDO, which
adopted the preliminary conclusions in the SSAE and
dismissed West Ridge as a potentially responsible
operator.
Hidden Splendor sought ALJ review of the district
director’s determination that Mr. Kourianos was

App. 20
entitled to benefits. In its “statement of contested
issues,” Hidden Splendor “advise[d] the parties that [it]
does not dispute its designation as the Responsible
Operator in this claim.” Id. at 83 (emphasis in original).
2. Proceedings Before the ALJ
The ALJ issued two orders, one confirming Hidden
Splendor’s designation as the responsible operator and
a second finding Mr. Kourianos was entitled to
benefits.
a. Responsible operator determination
The ALJ held a formal hearing in Price, Utah, on
August 12, 2014. Mr. Kourianos testified and explained
his job duties at Hidden Splendor. He testified that
during the first two periods with the company listed on
the staff accountant’s fax, he worked as an instructor
and a fire boss in the mine. During the last period of
employment, however, he worked “at the loadout,”
Suppl. App. at 46, performing “night watchman” duties
to ensure that people did not trespass or take materials
from the mine. ALJ Hrg. Tr. at 51, 55. He noted that he
did not mine or provide instruction to miners during
that time. For some of his time as a night watchman,
the mine was not operational.
Because Mr. Kourianos’s testimony suggested that
he did not work as a “miner” for a full year at Hidden
Splendor, Rockwood’s counsel moved to withdraw the
stipulation that Hidden Splendor was the responsible
operator for the claim. The ALJ permitted the parties
to file supplemental briefing on whether Hidden
Splendor should be allowed to withdraw its responsible
operator stipulation.

App. 21
The ALJ denied Rockwood’s motion. He applied 20
C.F.R. § 725.463(b), which, as noted above, states that
an ALJ “may consider a new issue only if such issue
was not reasonably ascertainable by the parties at the
time the claim was before the district director.” Suppl.
App. at 2-3. The ALJ found that the evidence of Mr.
Kourianos’s work was “reasonably ascertainable” when
the claim was pending before the district director,
noting:
While I appreciate that Claimant’s testimony
at the hearing concerning his job duties for
Employer came as a surprise, I note that one
significant piece of written documentation
related to the [responsible operator] issue,
the “Hire Dates for Tony Kourianos” fax, was
submitted by Employer. Furthermore, this
piece of evidence, which Employer states in
its brief was prepared by Employer’s “staff
accountant,” distinguished between the
periods when Claimant worked “in the mine”
and “at the Loadout.” Thus, Employer might
have ascertained what job duties Claimant
performed, and thereby determined whether
Hidden Splendor should have been named
the [responsible operator], by interviewing its
own agent regarding the evidence it
submitted.
Suppl. App. at 3 (citations omitted).
b. Entitlement to benefits
The ALJ issued his Decision and Order on February
28, 2017. The order addressed the following issues:

App. 22
(1)

The length of Mr. Kourianos’s coal
mine employment;

(2)

Whether Mr. Kourianos suffer[ed]
from pneumoconiosis, as defined by
the Act and regulations;

(3)

If so, whether Mr. Kourianos’s
pneumoconiosis arose from his coal
mine employment;

(4)

Whether Mr. Kourianos [was] totally
disabled; and

(5)

If so, whether Mr. Kourianos [was]
totally
disabled
due
to
pneumoconiosis.

Id. at 7.
i. Employment and smoking history
The ALJ found that Mr. Kourianos was a miner for
27.27 years.6 During this time, Mr. Kourianos “worked
in various capacities as a coal miner,” but his “usual
coal mine work” was working as a “fire boss.” Suppl.
App. at 14-15. As a fire boss, Mr. Kourianos conducted
frequent examinations of the mine and carried a tool
belt that weighed at least 30 to 32 pounds. Accordingly,
the ALJ found that Mr. Kourianos’s usual mine work
qualified as “medium work” under 20 C.F.R.
§ 404.1567(c) (describing classifications of physical
stress involved in different kinds of work). The ALJ

6

The ALJ did not include Mr. Kourianos’s time as a Hidden
Splendor “security guard” in this calculation. Suppl. App. at 9.

App. 23
further found that Mr. Kourianos smoked an average
of 7.5 cigarettes per day for approximately 44 years.
Rockwood’s petition does not contest the ALJ’s
employment classification or Mr. Kourianos’s smoking
history.
ii. Medical tests
The ALJ considered X-rays, which showed no
pulmonary irregularities. He also reviewed “pulmonary
function tests,” which likewise did not show evidence of
legal pneumoconiosis. Id. at 17.
The ALJ next examined Mr. Kourianos’s “arterial
blood gas studies,” which measure the ability of the
lungs to oxygenate blood. Under 20 C.F.R.
§ 718.204(b)(2)(ii), such tests may be used to establish
total disability. The ALJ explained,
A defect will manifest itself primarily as a
fall in arterial oxygen tension either at rest
or during exercise. The blood sample is
analyzed for the partial pressure of oxygen
(“PO2”) and the partial pressure of carbon
dioxide (“PCO2”) in the blood. A lower level
of oxygen (“O2”) compared to carbon dioxide
(“CO2”) indicates a deficiency in the transfer
of gases through the alveoli which may leave
the miner disabled.
Id. at 17-18.
As discussed above, Appendix C provided the
framework for the ALJ’s analysis of Mr. Kourianos’s
arterial blood gas studies. 20 C.F.R. pt. 718, App. C. To

App. 24
read the results of these studies, the ALJ (1) selected
the correct altitude range from Appendix C,
(2) identified Mr. Kourianos’s PCO2 readings, and
(3) identified the threshold PO2 value corresponding to
the PCO2 reading. If Mr. Kourianos’s PO2 level was
below the threshold value, he would qualify as
“impair[ed].” See id. If it fell above the impairment
threshold, he would not.
The ALJ considered results from two sets of Mr.
Kourianos’s arterial blood gas tests taken at Castleview
Hospital in Price, Utah. Price sits at approximately
5,566 feet above sea level, and the tests therefore
accounted for an altitude of 3,000-5,999 feet. Mr.
Kourianos’s 2010 test yielded a PO2 level of 60 at rest,
which, when measured against his PCO2 level of 43,
did not qualify him as impaired under Appendix C (the
threshold impairment level was a PO2 level of 55). His
2012 test showed a resting PCO2 level of 39 and a
corresponding PO2 level of 68, which also did not
qualify him as impaired under Appendix C because the
threshold PO2 level was 56. Id. But the 2012 test
revealed a PO2 level of 59 after exercise, which fell
below the threshold of 62 (at a PCO2 level of 33)
announced in Appendix C and therefore qualified him
as impaired. Id.

App. 25
The ALJ detailed the results in the following chart:
Exhibit/ Physician Altitude PCO2
PO2 Qualify
Date of
(feed)
?
Test
DX 16 Dr.
3,000- 39
68
No
8/23/
Gagon
5,999
(rest- (resting) Yes
2012
ing)
59
(exercis
33
(exercis e)
e)
60
No
EX 8 at Castle3,000- 43
72
view
5,999
(rest- (resting)
Hospital
ing)
5/26/
2010
Suppl. App. at 18.
iii.

Medical reports and opinions

The ALJ also considered reports and depositions
from three doctors. Mr. Kourianos selected Dr. Shane
Gagon to perform the medical screening for his BLBA
claim. Rockwood engaged Drs. George Zaldivar and Jeff
Selby to examine and comment on Mr. Kourianos’s
medical records. Neither Dr. Zaldivar nor Dr. Selby
examined Mr. Kourianos in person.
In brief, Dr. Gagon concluded that Mr. Kourianos
was totally disabled, while Drs. Zaldivar and Selby
opined that Mr. Kourianos did not suffer from
pneumoconiosis and was not totally disabled. Drs.
Zaldivar and Selby further attributed Mr. Kourianos’s
respiratory issues to his history of smoking, while Dr.
Gagon believed that smoking and coal mine work

App. 26
contributed equally to Mr. Kourianos’s respiratory
impairment. After receiving Dr. Zaldivar’s report, Dr.
Gagon filed a supplemental report, discussed below.
1) Dr. Gagon
Dr. Gagon examined Mr. Kourianos in August 2012,
conducted arterial blood gas testing, and issued his
report shortly thereafter. Dr. Gagon found that Mr.
Kourianos “suffered from moderate impairment with
subjective chronic shortness of breath with minimal
exertion and PO2 with exercise.” Suppl. App. at 18
(quotations omitted). He diagnosed Mr. Kourianos with
chronic bronchitis and a significant drop in PO2 levels
with exercise. Dr. Gagon concluded the bronchitis was
likely caused by “coal dust exposure and smoking” and
that both factors “probably” contributed equally to the
impairment. Id. (quotations omitted).
Dr. Gagon initially opined that Mr. Kourianos
“would be able to work in the coal mine” but “not at the
same degree with someone with no abnormalities” and
“as long as his job was fairly sedentary.” Suppl. App. at
19 (quotations and brackets omitted). The ALJ
summarized Dr. Gagon’s disability determination: “But
based on Claimant’s description of the more physical
job he performed in his usual coal mine work as a fire
boss . . . Claimant would not be able to perform the
described job duties.” Id.
Dr. Gagon performed the 2012 arterial gas tests on
Mr. Kourianos. In his deposition, Dr. Gagon affirmed
that the results were “normal” for Price, Utah. EX 12
at 12. But he affirmed that “it was abnormal that the
PO2s dropped” so much from resting to exercise. Id.

App. 27
Dr. Gagon submitted a supplemental report. It
stated: (1) the blood gas studies took into account the
altitude of Price, Utah; (2) the barometric pressure for
the blood gas test was likely incorrect, but the error
was probably a scrivener’s error that would not change
the results of the test; (3) the blood gas equipment
reads the results of the test at the altitude of Price,
Utah, and there had been no errors in the past;
(4) “[t]he ABG values indicate hypoxemia with exercise
meeting the requirements of disability set forth by
Black Lung [regulations] at the altitude of Price, UT”;
(5) Dr. Saldivar “seems to be contradicting himself” by
stating that smoking was probably the cause of Mr.
Kourianos’s low O2 levels because, “with the miner’s
significant exposure to coal dust, this is also a
significant contributing factor”; (6) Mr. Kourianos’s
bronchiolitis could be caused by coal dust or by
smoking; (7) “Mr. Kourianos could work as long as the
work is sedentary” but that “with his significant
hypoxemia with exercise, he would be limited with any
exertion”; and (8) “[b]ased on the table set forth [in
Appendix C,] he meets the requirments [sic] of
disability based on his hypoxemia at the altitude range
of 3000-5999.” Doc. 10612740 at 4-8.7
2) Dr. Zaldivar
Dr. Zaldivar did not examine Mr. Kourianos in
person. The opinions in his report and deposition were
based on a review of Mr. Kourianos’s medical records,

7

The Director submitted this document in response to this court’s
sua sponte order because it was missing from the original
appendix.

App. 28
which did not include a work history. Dr. Zaldivar
stated, “My opinion[] considering the totality of the
case is that pneumoconiosis is not present.” Suppl. App.
at 20 (quotations omitted). He said that “if there is any
pulmonary condition at all, it is bronchiolitis caused by
smoking.” Id. (quotations omitted). In support, he
explained that “coal miners are human beings subject
to all diseases and conditions of human beings and are
affected by habits such as smoking just as the
population at large is affected by it.” Id. (quotations
omitted). Thus, if Mr. Kourianos suffered from chronic
bronchitis, Dr. Zaldivar concluded that it was caused
by smoking. Id. at 21.
Dr. Zaldivar also concluded that Mr. Kourianos was
not disabled. In response to Dr. Gagon’s report and Mr.
Kourianos’s arterial blood gas studies, Dr. Zaldivar
acknowledged that Mr. Kourianos’s blood gas PO2
levels appeared “very low” but noted they “were not
[low] when taking into consideration the altitude of
Price, UT.” Id. at 19 (quotations omitted). He
“explained that normal PO2 values are expected to
drop linearly as altitude increases.” Id. at 24.
Therefore, as the ALJ recounted, Dr. Zaldivar opined
that the Department of Labor regulations did not
“accurately reflect the drop in PO2 values that occurs
at higher altitudes.” Id. at 21.
3) Dr. Selby
Dr. Selby also did not examine Mr. Kourianos. The
ALJ noted that, after reviewing medical records, Dr.
Selby similarly concluded that Mr. Kourianos “did not
suffer from clinical or legal pneumoconiosis.” Id. at 22.
Dr. Selby acknowledged that the PO2 level was “a bit

App. 29
low at first glance at rest, and then the PO2 decreased
with exercise.” Id. (quotations omitted). Like Dr.
Zaldivar, he concluded that, given the altitude in Price,
Utah, the range of disability “would be more accurately
defined toward the PO2 of 57 value.” Id. at 21
(quotations omitted). In other words, he believed that
the Appendix C threshold was too high when applied to
the altitude of Price.
Dr. Selby stated that the low PO2 values could be
“undiagnosed asthma,” “chronic bronchitis from
smoking,” or “congestive heart failure.” Id. at 22
(quotations omitted). He also stated that the drop in
Mr. Kourianos’s PO2 values could mean he suffered
from “some form of disease,” but he discounted the
severity of the disease because the PO2 levels were
normal for the altitude of Price. Id. at 22 (quotations
omitted). Dr. Selby also stated that “working in coal
mines prohibits the inhalation of cigarette smoking,
thus actually protecting the lungs.” Id. at 26
(quotations omitted).
iv. Analysis of evidence
1) Total disability and 15-year presumption
Based on the evidence described above, the ALJ
found that Mr. Kourianos was totally disabled. The
ALJ noted that the “pulmonary function tests and the
arterial blood gas studies yield equivocal results.” Id. at
24. Regarding the medical opinions, he stated as
follows:
I find that the medical opinion evidence does
establish that Claimant is totally disabled
from working as a fire boss. I give great

App. 30
weight to Dr. Gagon’s opinion, because he is
the only physician who discussed (in his
deposition) the specific duties Claimant
performed as a fire boss. His opinion
regarding disability is well-documented and
well-reasoned, and he was in a better
position to determine whether Claimant
could exert the physical effort required to
perform a fire boss’s duties than the other
physicians. See Killman v. Director, OWCP,
415 F.3d 716, 722 (7th Cir. 2005).
I give little weight to Dr. Zaldivar’s and
Dr. Selby’s findings that Mr. Kourianos is not
disabled. Neither doctor’s finding was
informed by details of Claimant’s usual coal
mine employment. Furthermore, Dr. Zaldivar
and Dr. Selby both stated in their reports
and testified at their depositions that the
arterial blood gas studies did not properly
account for Price, Utah’s altitude: because
the test was conducted at a relatively high
altitude, they stated, and because PO2
values could be expected to drop linearly as
altitude increased, the low PO2 value should
not be considered to show disability.
Appendix C to 20 C.F.R. Part 718, however,
requires that administrative law judges
analyze arterial blood gas studies according
to three ranges of altitude: from sea level to
2,999 above sea level; from 3,000 to 5,999
above sea level; and over 6,000 feet above sea
level. The testing was performed in the
second range, from 3,000 to 5,999 feet above

App. 31
sea level. The regulations do not contemplate
further dividing testing results into narrower
ranges, nor am I permitted to do so. Because
Dr. Zaldivar’s and Dr. Selby’s statements are
inconsistent with the regulations, I give their
opinions regarding Claimant’s disability little
weight.
Id. at 24. Thus, he found that Mr. Kourianos had met
element three of a BLBA claim—the disability element.
Because he found that Mr. Kourianos was totally
disabled and had worked as a miner for more than 15
years, the ALJ applied the 15-year presumption.
2) No rebuttal of presumption
Element One—the ALJ initially found that Hidden
Splendor had rebutted the presumption of clinical
pneumoconiosis because Mr. Kourianos did not submit
evidence of clinical pneumoconiosis. But based on Dr.
Gagon’s diagnosis of chronic bronchitis that was caused
in part by coal dust, the ALJ concluded that Hidden
Splendor could not rebut the presumption that Mr.
Kourianos suffered from legal pneumoconiosis (the
disease element).
Although Mr. Kourianos had a history of smoking,
the ALJ found that none of the doctors established a
sufficiently precise connection between smoking and
Mr. Kourianos’s respiratory problems. Specifically, the
ALJ gave “little weight to Dr. Gagon’s conclusion that
coal dust exposure and cigarette smoke equally
contributed to his respiratory condition, because his
diagnosis is conclusory and not well documented.” Id.
at 26. The ALJ also “g[a]ve little weight to Dr.

App. 32
Zaldivar’s conclusion that Claimant’s respiratory
condition was caused solely by smoking” because
(1) Dr. Zaldivar implied that “blood gas studies alone
could not indicate the presence of coal workers’
pneumoconiosis, but that pneumoconiosis must be seen
via pulmonary function testing or x-rays—a position
inconsistent with the regulations”; and (2) his
conclusions about smoking were “based on an analysis
of the general population, and not on an analysis
specific to the miner.” Id. Finally, the ALJ gave “little
weight to Dr. Selby’s finding that Mr. Kourianos
suffered from asthma and that his asthma was
unrelated to his coal mining and exacerbated by his
smoking” for two reasons: (1) Dr. Selby was the only
doctor to diagnose Mr. Kourianos with asthma, and he
did not adequately document or explain his diagnosis;
and (2) “Dr. Selby’s statement that ‘working in coal
mines prohibits the inhalation of cigarette smoking,
thus actually protecting the lungs’ is contrary to the
central purpose and function of the [BLBA].” Id.
Element Two—because Hidden Splendor argued
only that Mr. Kourianos did not have pneumoconiosis
(disease) and did not dispute that coal mining caused
his pneumoconiosis (disease causation), the ALJ found
that it had not rebutted the presumption of disease
causation. In doing so, the ALJ acknowledged the 10year presumption,8 noting that the BLBA “regulations
provide for a rebuttable presumption that
pneumoconiosis arose out of coal mine employment if a
miner with pneumoconiosis was employed in the mines
8

As noted above, a claimant who has established the 15-year
presumption does not need the benefit of the 10-year presumption.

App. 33
for ten or more years.” Id. at 27 (citing 30 U.S.C.
§ 921(c)(1); 20 C.F.R. § 718.203(b)).
Element Four9—the ALJ found that Hidden
Splendor had not rebutted the presumption that
pneumoconiosis caused Mr. Kourianos’s disabling
respiratory or pulmonary impairment (disability
causation). Id. at 27. The ALJ reasoned, “[N]either Dr.
Zaldivar nor Dr. Selby diagnosed pneumoconiosis, and
Employer has pointed to no other evidence to rebut the
presumption that Mr. Kourianos’s pneumoconiosis
caused his total disability.” Id. In other words, because
Hidden Splendor’s arguments challenged only the
existence of a total disability (disability), it did not
argue against the disability causation presumption in
the alternative.
Finding that Mr. Kourianos had satisfied the four
elements of a BLBA claim, the ALJ awarded Mr.
Kourianos benefits and found Hidden Splendor liable
for those benefits as the responsible operator.
3. Proceedings before the BRB
Hidden Splendor appealed to the BRB, arguing the
ALJ erred in finding that (1) Hidden Splendor was the
responsible operator; (2) the evidence established total
disability under 20 C.F.R. § 718.204(b)(2); (3) Mr.
Kourianos was entitled to the 15-year presumption;

9

As noted above, the ALJ found that element three—total
disability—had been satisfied. Together with Mr. Kourianos’s 27
years as a coal miner, this established the 15-year presumption,
prompting the need for Hidden Splendor to rebut elements one,
two, or four.

App. 34
and (4) Hidden Splendor
presumption. Id. at 30-31.

did

not

rebut

the

In deciding the appeal, the BRB first recited the
standard of review, explaining that the ALJ’s Decision
and Order “must be affirmed if it is rational, supported
by substantial evidence, and in accordance with
applicable law.” Id. at 32 (citing 33 U.S.C. § 921(b)(3),
as incorporated by 30 U.S.C. § 932(a)). It unanimously
affirmed on all grounds.10
III. DISCUSSION
Rockwood raises two issues on appeal.11 First, did
the ALJ err in denying Hidden Splendor’s motion to
withdraw its responsible operator stipulation? Second,
did substantial evidence support the ALJ’s
determination that Mr. Kourianos is entitled to
benefits?

10

One member of the panel concurred in the judgment,
highlighting that the ALJ did not rely solely on Appendix C of the
regulations in making his determination: “Given that he accurately
characterized their opinions and provided a rational basis for
rejecting them, his additional statement that he was not
‘permitted’ to consider further altitude adjustments was, at worst,
a harmless error, in my view.” Suppl. App. at 44.
11

Rockwood also filed a contested motion to supplement the record
with an agreed order between the Director and Consolidated Coal
in a separate case. The agreed order was not before the ALJ in this
case and we therefore deny Rockwood’s motion to supplement the
record. See In re United States, 138 S. Ct. 371, 372 (2017)
(explaining that the administrative record consists of materials
relied upon and considered by agency decision makers).

App. 35
This case has three parties. Rockwood is the
petitioner acting as Hidden Splendor’s legal
representative and agent. Mr. Kourianos and the
Director are both respondents. Mr. Kourianos defends
both issues on appeal but requests that if “Employer is
not the properly named responsible operator,” this
court should name the Black Lung Trust Fund as liable
for his benefits. Kourianos Br. at 11. To defend the
interests of the Trust Fund, the Director disputes only
the responsible operator issue and takes no position on
Mr. Kourianos’s eligibility for benefits.
A. Standard of Review
On the first appeal issue—the ALJ’s denial of
Rockwood’s motion to withdraw its responsible
operator stipulation—the parties state that our
standard of review is abuse of discretion. See Pet’r’s Br.
at 5-6; OWCP’s Br. at 20; Kourianos’s Br. at 9. But as
our discussion of this issue shows, Rockwood’s
argument appears to challenge not only the ALJ’s
application of the regulations but also his
interpretation of them. Courts review the latter de novo
but grant deference to the agency’s interpretation of its
own regulations. See Antelope Coal, 743 F.3d at 1341;
Andersen, 455 F.3d at 1103. We need not analyze the
standard of review further because, under either abuse
of discretion or de novo review, we affirm the ALJ’s
decision on this issue.
On the second appeal issue—the ALJ’s benefits
determination—we review whether “substantial
evidence” supported the ALJ’s decision. Hansen v. Dir.,
OWCP, 984 F.2d 364, 368 (10th Cir. 1993). Substantial
evidence is “such relevant evidence as a reasonable

App. 36
mind might accept as adequate to support a
conclusion.” Consol. Edison Co. v. NLRB, 305 U.S. 197,
229 (1938); see Energy W. Mining Co. v. Oliver, 555
F.3d 1211, 1217 (10th Cir. 2009). We do not reweigh
the evidence presented to the ALJ. Antelope Coal, 743
F.3d at 1341. “[W]here medical professionals . . .
disagree[ ], the trier of fact is in a unique position to
determine credibility and weigh the evidence.” Id.
(quotations omitted). Thus, “the task of weighing
conflicting medical evidence is within the sole province
of the ALJ.” Hansen, 984 F.2d at 368.12
B. The Responsible Operator Determination
The ALJ did not determine whether Mr. Kourianos
worked as a miner at Hidden Splendor for a full year.
Rather, Hidden Splendor admitted to the Director that
it was the responsible operator, and the ALJ accepted
that admission as conclusive. Rockwood therefore
challenges the ALJ’s refusal to allow Hidden Splendor
to withdraw its stipulation.
1. Additional Legal Background
The Department of Labor’s regulations prescribe the
process for determining the responsible operator. They
generally call for the district director—not the ALJ—to
decide the responsible operator question. See 20 C.F.R.
§ 725.418(d) (providing that the district director must
12

Although we formally review the BRB’s decision, the BRB’s
deferential standard of review of ALJ decisions requires us to
examine the ALJ’s findings of fact. Antelope Coal, 743 F.3d at 1341
n.13; Blackburn, 857 F.3d at 822; see also 33 U.S.C. § 921(b)(3)
(stating that on review by the BRB, the ALJ’s findings of fact are
“conclusive if supported by substantial evidence”).

App. 37
“dismiss, as parties to the claim, all other potentially
liable operators” when it issues its PDO); id.
§ 725.407(d) (prohibiting the district director from
“notify[ing] additional operators of their potential
liability after a case has been referred” to an ALJ). The
Department of Labor explained the rationale for this
rule when it promulgated updated BLBA regulations in
2010:
The Department agrees that the revised
regulations place additional burdens on coal
mine operators who have, in the past,
routinely filed form controversions of their
liability for benefits and waited until the case
was referred to the Office of Administrative
Law Judges to develop their defenses. . . . As
revised, the regulations will permit the
district director to refer a case to the Office of
Administrative Law Judges with no more
than one operator as a party to the claim, the
responsible operator as finally designated by
the district director. The regulations prohibit
the remand of cases for the identification of
additional potentially liable operators, or to
allow the district director to designate a new
responsible operator, thereby reducing delay
in the adjudication of the merits of a
claimant’s entitlement. This change also
places the risk that the district director has
not named the proper operator on the Black
Lung Disability Trust Fund, however. The
Department believes that the additional
demands placed upon potentially liable
operators are not unreasonable. In addition,

App. 38
the Department does not accept the criticism
that the regulation sets traps for unwary
litigants. The nature of the evidence required
by the Department, and the time limits for
submitting that evidence, are clearly set
forth in the regulations, and will be
communicated to potentially liable operators
who are notified of a claim by the district
director.
Regulations Implementing the Federal Coal Mine
Health and Safety Act of 1969, as Amended, 65 Fed.
Reg. 79920-01, 79985 (Dec. 20, 2000) (citations
omitted).
Accordingly, even if the district director incorrectly
identifies the responsible operator and refers the case
to an ALJ, a new responsible operator may not be
named. Appleton & Ratliff Coal Corp. v. Ratliff, 664 F.
App’x 470, 473 (6th Cir. 2016) (unpublished) (“The
appeal to an ALJ is the point of no return on the
responsible operator designation.”). “If subsequent
proceedings determine the director’s designation is not
supported, the matter is not remanded to find a
different responsible operator and, instead, the Trust
Fund pays benefits.” Id.
Against this backdrop, we apply the general rule
that “stipulations and concessions bind those who make
them.” Consolidation Coal Co. v. Dir., OWCP
(“Burris”), 732 F.3d 723, 730 (7th Cir. 2013). In this
case, the potential exception to that rule is 20 C.F.R.
§ 725.463(b), which provides that “[a]n administrative
law judge may consider a new issue only if such issue
was not reasonably ascertainable by the parties at the

App. 39
time the claim was before the district director.” See also
Marfork Coal Co. v. Weis, 251 F. App’x 229, 236 (4th
Cir. 2007) (denying operator’s motion to belatedly
introduce x-ray evidence because the x-ray was not
previously hidden; it “was waiting to be found”).
2. Analysis
Hidden Splendor conceded its responsible operator
status (1) in its amended response to the district
director’s notice of claim, in which it stated that it was
“the responsible operator within the meaning of the
[BLBA],” Suppl. App. at 58; (2) in its response to the
district director’s SSAE, in which it stated that
“Hidden Splendor has accepted the designation of
Responsible Operator,” id. at 73; and (3) in its initial
submission to the ALJ, in which it stated that Hidden
Splendor “does not dispute its designation as the
Responsible Operator,” id. at 83.
As the ALJ noted, Hidden Splendor’s senior staff
accountant had reported in a fax to the district director
that Mr. Kourianos worked “outside at the
loadout”—not “in the mine”—during his last months at
Hidden Splendor. Id. at 46. But notwithstanding the
fax’s suggestion that Mr. Kourianos was not “in the
mine” for a full year at Hidden Splendor, Rockwood
failed to investigate Mr. Kourianos’s employment and
did not dispute the responsible operator question until
the ALJ’s hearing more than two years after Mr.
Kourianos filed his claim. These facts undercut any
argument that responsible operator evidence was not
“reasonably ascertainable” while Mr. Kourianos’s claim
was pending before the district director. 20 C.F.R.
§ 725.463(b).

App. 40
Hidden Splendor could have “reasonably
ascertain[ed]” Mr. Kourianos’s job duties in a number
of ways. See id. As the BRB noted, Hidden Splendor
“determined the terms of claimant’s work and therefore
normally would have records relevant to the nature of
his employment (job title, etc.). Employer has not
averred that it had no records or access to relevant
personnel with the requisite information.” Suppl. App.
at 34 n.5. In addition, neither Hidden Splendor nor
Rockwood has suggested that they sought to speak to
Mr. Kourianos or his co-workers about his duties at
Hidden Splendor. Moreover, if Hidden Splendor had
checked its operating records, it would have found its
mine was closed for part of the time that Mr. Kourianos
worked there. Any of these steps would have been
reasonable, but Rockwood did not take them. Mr.
Kourianos’s employment was not only “reasonably
ascertainable” but was easily ascertainable through a
simple phone call or a review of Hidden Splendor’s
records. 20 C.F.R. § 725.463(b).
Rockwood’s excuses for Hidden Splendor’s failure to
investigate are not convincing. Rockwood appears to
argue that the regulations’ timeline prevented it from
submitting new evidence after 90 days of receiving the
district director’s notice of claim. See Pet’r’s Br. at 18.
The regulations show otherwise. See 20 C.F.R.
§ 725.417(b) (“In appropriate cases, the district director
may permit a reasonable time for the submission of
additional evidence following a conference . . . .”); id.
§ 725.410(b) (“The [SSAE] shall allow all parties not
less than 60 days within which to submit additional
evidence, including evidence relevant to the claimant’s
eligibility for benefits and evidence relevant to the

App. 41
liability of the designated responsible operator.”
(emphasis added)). In addition, Hidden Splendor did
not ask to submit additional evidence or suggest that it
wanted to challenge its responsible operator status
before the district director.
Rockwood also suggests that the available
documentary evidence about Mr. Kourianos’s
employment was misleading. It was not. Mr.
Kourianos’s Social Security earnings statement showed
that he was a Hidden Splendor employee and stated
how much money he made working for the company,
but it said nothing about his job duties. In addition, the
accountant’s “Hire Dates for Tony Kourianos” fax
showed that Mr. Kourianos did not work “in the mine”
for at least part of his time with the company. Suppl.
App. at 46.
Finally, Rockwood’s reliance on Morrison v. Hurst
Drilling Co., 512 P.2d 438, 439-40 (Kan. 1973) is
misplaced. In Morrison, an employee’s wife filled out
her husband’s workers’ compensation claim and
erroneously listed the place of injury as Kansas. Id. at
440-41. Relying on the employee’s wife’s statement, the
defendant employer stipulated that the injury occurred
in Kansas. Id. at 440. After the employee’s testimony
and other documentation revealed the injury had
occurred at a work site in Oklahoma (a finding that
deprived the Kansas court of jurisdiction), the employer
sought to withdraw its stipulation. Id. The claim
examiner granted the employer’s motion.

App. 42
On appeal, the Kansas Supreme Court recited the
applicable rule as follows:
The general rule is that a stipulation having
all the binding force of a contract cannot be
set aside on grounds other than those
justifying the setting aside of contracts
generally, such, for instance, as fraud,
collusion, mistake, accident, surprise, undue
influence, false representations innocently
made, inadvertence or improvidence in
making the stipulation, or some other ground
of the same nature.
Id. at 441 (quotations omitted). Applying that rule, the
court then held that the defendant relied on the
employee’s wife’s misstatement when it entered the
stipulation, noted that the plaintiff would not suffer
any prejudice from an order withdrawing the
stipulation because he could simply re-file his workers
compensation claim in Oklahoma, and allowed the
defendant to withdraw its stipulation. Id. at 442.
Unlike the employee in Morrison, 512 P.2d at 440,
whose wife misstated a material fact in the workers’
compensation claim, Mr. Kourianos never suggested
that he was a coal miner the entire time he worked at
Hidden Splendor. To the contrary, he stated at the
hearing that he “kn[e]w by law that we have to blame
[Hidden Splendor]” for his disability, but he explained
forthrightly that he did not do “miner” work for a full
year with the company. ALJ Hrg. Tr. at 35, 56-62.
In addition, Rockwood’s discussion of Morrison is
misguided because Mr. Kourianos’s claim involved the

App. 43
application of the BLBA regulations rather than state
common law. As discussed above, the regulations place
the burden on employers to challenge their responsible
operator designation before the district director. See
Ratliff, 664 F. App’x at 473. If they fail to do so and the
ALJ ultimately finds they were wrongly named as the
responsible operator, that decision does not shift
liability to another operator. Id. Instead, the Black
Lung Trust Fund must step in to replace the operator
as the party liable for paying the miner’s benefits. See
26 U.S.C. § 9501(d)(1). Under this statutory scheme,
the Department of Labor has declared—through its
regulations—that the district director should resolve
responsible operator issues in the first instance, see 20
C.F.R. § 725.407(d), and the ALJ properly applied the
Department’s regulations, see Suppl. App. at 2-3.
****
In sum, the nature of Mr. Kourianos’s employment
at Hidden Splendor was “reasonably ascertainable” the
entire time his claim was pending before the district
director. See 20 C.F.R. § 725.463(b). With due diligence,
Hidden Splendor could have obtained all the necessary
information about Mr. Kourianos’s work
responsibilities before the claim ever reached the ALJ.
Because it failed to do so, the ALJ did not err in
denying Hidden Splendor’s motion to withdraw its
responsible operator stipulation.13

13

We decline to address the Director’s argument that responsible
operator liability can never be raised as a “new issue” in the ALJ
hearing when the operator has conceded liability before the district
director. See OWCP Br. at 25-26. We hold only that, in this case,

App. 44
C. The Benefits Eligibility Determination
The ALJ’s benefits eligibility determination rests on
factual findings. We uphold those findings when
substantial evidence supports them. See Antelope Coal,
743 F.3d at 1341.
1. BLBA Claims Framework
As previously discussed, to prevail on a BLBA
benefits claim, the claimant must establish four
elements:
(1)

the
claimant
suffers
pneumoconiosis (disease),

from

2)

the claimant’s pneumoconiosis arose
out of coal mine employment (disease
causation),

(3)

the claimant is totally disabled
because of a respiratory or pulmonary
impairment (disability), and

(4)

claimant’s pneumoconiosis is a
substantially contributing cause of the
miner’s total disability (disability
causation).

Blackburn, 857 F.3d at 821.
Mr. Kourianos worked as a miner for more than 27
years. To invoke the 15-year presumption, therefore, he
needs to show only that he suffered from a totally
the ALJ properly denied Rockwood’s motion to re-open the issue
under the “new issue” rule. 20 C.F.R. § 725.463(b).

App. 45
disabling respiratory or pulmonary impairment. 20
C.F.R. §§ 718.204, 718.305(b)(1); see Antelope Coal, 743
F.3d at 1344. And once he has done so, the other three
elements of a BLBA claim are presumptively
established. The presumption therefore “softens [Mr.
Kourianos’s] burden” and places a heavier burden on
Rockwood. Blackburn, 857 F.3d at 822. On appeal,
Rockwood primarily seeks to avoid the application of
the 15-year presumption by arguing the ALJ
incorrectly determined that Mr. Kourianos was totally
disabled due to a respiratory or pulmonary
impairment.
The following analysis concludes that substantial
evidence supported the ALJ’s determination that the
15-year presumption applied to Mr. Kourianos’s claim.
We further conclude that Hidden Splendor did not
rebut the presumption by disproving that
(1) pneumoconiosis caused Mr. Kourianos’s pulmonary
impairment or that (2) Mr. Kourianos’s pneumoconiosis
caused his total disability.
2. Analysis
a. Total disability
As noted above, the ALJ relied on two types of
evidence in reaching his total disability determination.
First, he considered arterial blood gas studies under 20
C.F.R. § 718.204(b)(2)(ii). Second, finding the studies
“equivocal,” he considered the medical opinions
discussed above. Id. § 718.204(b)(2)(iv).

App. 46
i. Arterial blood gas testing
Mr. Kourianos’s 2012 arterial blood gas test yielded
a PCO2 level of 33 and a PO2 level of 59 during
exercise, thus bringing him below the impairment
threshold PO2 level of 62 on the Appendix C chart. All
three doctors, however, including Dr. Gagon, stated
that Mr. Kourianos’s PO2 value of 59 at Price, Utah,
was “normal.” See EX 12 at 11-12; Suppl. App. at 38.
This view stemmed from the altitude of Price, Utah,
falling in the upper end of the 3,000-5,999-foot range
and the fact that “normal PO2 levels are expected to
drop linearly as altitude increases.” Suppl. App. at 38.
Accordingly, Rockwood argues that the blood gas
studies did not provide evidence of Mr. Kourianos’s
disability and could not support the ALJ’s finding that
the medical tests were “equivocal.” Pet’r’s Br. at 28. We
disagree.
First, Mr. Kourianos’s 2012 arterial blood gas
testing yielded a PO2 level that qualified him for
impairment under the regulations. See Erie Boulevard
Hydropower, LP v. FERC, 878 F.3d 258, 269 (D.C. Cir.
2017) (“It is axiomatic that an agency is bound by its
own regulations.” (quotations and alterations omitted)).
As Dr. Gagon stated in his supplemental report, “I
cannot change the ‘rules of the game.’ Based on the
table set forth [in Appendix C], [Mr. Kourianos] meets
the requirements of disability based on his hypoxemia
at the altitude range of 3000-5999.” Doc. 10612740 at
8. Irrespective of how altitude may affect test results
within a range, Appendix C still qualified Mr.
Kourianos for a pulmonary or respiratory impairment.
The ALJ therefore properly considered Appendix C—as

App. 47
well as the medical opinions—in making his ultimate
disability determination. See Bosco v. Twin Pines Coal
Co., 892 F.2d 1473, 1479 (10th Cir. 1989) (declaring
that “an ALJ must consider all evidence relevant to the
issue of total disability” in deciding whether 15-year
presumption applies).
Second, Dr. Gagon testified that “it was abnormal
that the PO2s dropped” with exercise, and neither of
the other doctors contested his conclusion. EX 12 at 1112; see EX 5 at 10-11; EX 2 at 8-9.14 Accordingly, even
if the PO2 levels were “normal” for Price, Utah, the test
still revealed a notable abnormality that suggested
some degree of respiratory impairment.
ii. Medical opinions
The ALJ appeared to rely in part on the arterial
blood gas studies for his total disability decision, but
because he also found them to be “equivocal,” and not
sufficient to find total disability on their own, he relied
further on the three doctors’ medical opinions for his
ultimate disability determination. Suppl. App. at 24;
see 20 C.F.R. § 718.204(b)(2)(iv). As we discuss below,
substantial evidence supported the ALJ’s evaluation of
the medical opinions. See Hansen, 984 F.2d at 368
(“[T]he task of weighing conflicting medical evidence is
within the sole province of the ALJ.”).

14

In this respect, Rockwood misconstrues the record when it states
that “all of Mr. Kourianos’[s] testing values were normal.” Pet’r’s
Br. at 45. Mr. Kourianos’s arterial blood gas testing was abnormal
under the regulations, and the drop in his PO2 values from resting
to exercise was also “abnormal.” Suppl. App. at 37-38 & n.13.

App. 48
All three doctors found that Mr. Kourianos had
respiratory problems, which qualified his impairment
as legal pneumoconiosis to the extent they were
“chronic.” See Antelope Coal, 743 F.3d at 1335; 20
C.F.R. § 718.201(a)(2) (legal pneumoconiosis includes
“any chronic restrictive or obstructive pulmonary
disease arising out of coal mine employment”
(quotations omitted)). Dr. Gagon diagnosed Mr.
Kourianos with chronic bronchitis, a chronic productive
cough, and a significant drop in PO2 levels with
exercise. Suppl. App. at 18. Dr. Zaldivar noted that Mr.
Kourianos showed “symptoms of chronic bronchitis for
one-and-a-half years and night wheezing” and
explained that his “[l]ungs showed decreased breath
sounds.” Id. at 19 (quotations omitted). Dr. Selby noted
that Mr. Kourianos’s symptoms of “wheezing,
productive cough, and decreased PO2, indicated a very
strong presentation for the diagnosis of asthma.” Id. at
21 (quotations omitted). The doctors therefore
disagreed about the severity rather than the existence
of Mr. Kourianos’s impairment.
The ALJ compared Mr. Kourianos’s disability to his
job duties, as 20 C.F.R. § 718.204(b)(1) required.
Weighing the evidence, he gave greater weight to Dr.
Gagon’s testimony because “he [was] the only physician
who discussed (in his deposition) the specific duties
Claimant performed as a fire boss.” Suppl. App. at 24.
He discounted Dr. Zaldivar’s and Dr. Selby’s findings
that Mr. Kourianos was not disabled because their
opinions were not “informed by details of Claimant’s
usual coal mine employment.” Id. We do not reweigh
evidence, and the ALJ considered all the evidence
before him and explained his conclusion fully. See

App. 49
Blackburn, 857 F.3d at 826-28 (upholding BRB decision
when ALJ credited one doctor’s causation testimony
against the testimony of two other doctors); see also
Hansen, 984 F.2d at 368 (noting that the ALJ is in a
unique position to judge the credibility of medical
professionals). The total disability determination was
supported by substantial evidence. See 33 U.S.C.
§ 921(b)(3).
b. Rockwood has
presumption

not

overcome

the

15-year

Because substantial evidence supported the ALJ’s
total disability determination—the third element of a
BLBA claim—the 15-year presumption provided that
the disease, disease causation, and disability causation
elements were presumptively met. The burden thus
shifted to Rockwood to disprove any of those elements.
We conclude it failed to do so.
i. No
rebuttal
of
presumption
pneumoconiosis or disease causation

of

Because substantial evidence supported the ALJ’s
determination that Mr. Kourianos was totally disabled
and because Mr. Kourianos worked for more than 27
years as a coal miner, the ALJ was required to presume
that he had legal pneumoconiosis caused by his coal
mine work.
Rockwood attempts to rebut the presumptions that
Mr. Kourianos suffered from pneumoconiosis and that
it arose from coal mining by pointing to Mr.
Kourianos’s history of smoking as an alternative cause
of his impairment. All three doctors suggested that
smoking contributed, at least in part, to Mr.

App. 50
Kourianos’s respiratory problems. Suppl. App. at 26.
But the ALJ gave limited weight to their opinions
because they all spoke about the general dangers of
smoking without linking smoking to any of Mr.
Kourianos’s particular problems.
The ALJ noted that Dr. Gagon’s opinion that
smoking and coal dust were equal contributors to Mr.
Kourianos’s problems was “conclusory and not welldocumented.” Id. The ALJ discredited Dr. Zaldivar’s
causation opinion because it was “based on an analysis
of the general population, and not on an analysis
specific to the miner.” See id. at 26. And he discredited
Dr. Selby’s opinion, in part because his “statement that
‘working in the coal mines prohibits the inhalation of
cigarette smoking, thus actually protecting the lungs’
[was] contrary to the central purpose and function of
the act.” Id. (quoting Dr. Selby Depo.). The ALJ did not
find this reasoning convincing, and we do not disturb
that determination when it is based on reasoned
judgment. See Antelope Coal, 743 F.3d at 1345-46
(upholding ALJ’s rejection of an operator’s reliance on
statistical data to prove the effects of smoking on a coal
miner); see also Blackburn, 857 F.3d at 826-28
(upholding ALJ’s determination that employer did not
rebut presumption of pneumoconiosis when doctors
provided inconsistent testimony about smoking).
The 15-year presumption shifts the burden to the
employer, who must present evidence to rebut the
existence of or the causation of pneumoconiosis. The
ALJ concluded Hidden Splendor did not rebut these
presumptions. We find that substantial evidence
supported that decision. See 20 C.F.R. § 718.305(d)

App. 51
(“The presumption must not be considered rebutted on
the basis of evidence demonstrating the existence of a
totally disabling obstructive respiratory or pulmonary
disease of unknown origin.”).
ii. No rebuttal of presumption of total disability
due to pneumoconiosis
Rockwood also argues that Mr. Kourianos’s
disability cannot be attributed to pneumoconiosis, but
it relies on the same arguments it uses to challenge
that Mr. Kourianos is totally disabled. We have
rejected these arguments. Moreover, Rockwood does
not point to evidence of any other ailment—e.g., lung
cancer from cigarettes—that might have caused Mr.
Kourianos’s total disability. As the ALJ noted,
“Employer has pointed to no other evidence to rebut the
presumption that Mr. Kourianos’s pneumoconiosis
caused his total disability.” Suppl. App. at 27. We find
that substantial evidence supports this determination.
****
In sum, the ALJ properly found that the 15-year
presumption applied because Mr. Kourianos was
(1) totally disabled as a result of a respiratory
impairment and (2) worked for more than 15 years in
a mine. See Antelope Coal, 743 F.3d at 1335. The
burden thus fell on Rockwood to rebut the
presumptions that Mr. Kourianos had pneumoconiosis,
that coal mining caused it, and that his pneumoconiosis
caused his total disability. See id. at 1336. The ALJ
concluded that it had not done so, and we find that
substantial evidence supports that conclusion.

App. 52
III. CONCLUSION
Because the ALJ did not err in denying Hidden
Splendor’s motion to withdraw its responsible operator
stipulation, and because the ALJ’s substantive benefits
determination was well reasoned and supported by
substantial evidence, we deny Rockwood’s petition.

App. 53
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
No. 18-9520
(Benefits No. 17-0323 BLA)
(Benefits Review Board)
[Filed March 5, 2019]
________________________________
ROCKWOOD CASUALTY
)
INSURANCE COMPANY,
)
insurer of Hidden Splendor
)
Resources, Inc.,
)
)
Petitioner,
)
)
v.
)
)
DIRECTOR, OFFICE OF
)
WORKERS’ COMPENSATION
)
PROGRAMS, UNITED STATES )
DEPARTMENT OF LABOR;
)
TONY KOURIANOS,
)
)
Respondents.
)
________________________________ )
JUDGMENT
_________________________________
Before BRISCOE, MATHESON, and BACHARACH,
Circuit Judges.
_________________________________
This petition for review originated from the Benefits
Review Board and was argued by counsel.

App. 54
It is the judgment of this Court that the action of
the Benefits Review Board is affirmed.
Entered for the Court
/s/Elisabeth A. Shumaker
ELISABETH A. SHUMAKER, Clerk

App. 55

APPENDIX C
U.S. DEPARTMENT OF LABOR
Benefits Review Board
200 Constitution Ave. NW
Washington, DC 20210-0001
BRB No. 17-0323 BLA
[Filed March 29, 2018]
_________________________________________
TONY N. KOURIANOS
)
)
Claimant-Respondent
)
)
v.
)
)
HIDDEN SPLENDOR RESOURCES,
)
INCORPORATED
)
)
and
)
)
ROCKWOOD CASUALTY INSURANCE
)
COMPANY
)
)
Employer/Carrier-Petitioners )
)
DIRECTOR, OFFICE OF WORKERS’
)
COMPENSATION PROGRAMS, UNITED )
STATES DEPARTMENT OF LABOR
)
)
Party-in-Interest
)
________________________________________ )

App. 56
NOT-PUBLISHED
DATE ISSUED: 03/29/2018
DECISION and ORDER
Appeal of the Decision and Order of Paul R.
Almanza, Administrative Law Judge United States
Department of Labor.
Joseph E. Wolfe and Brad A. Austin (Wolfe
Williams & Reynolds), Norton, Virginia, for
claimant.
Cheryl L. Intravaia (Feirich/Mager/Green/Ryan),
Carbondale, Illinois, for employer/carrier.
Rita Roppolo (Kate S. O’Scannlain, Solicitor of
Labor; Maia S. Fisher, Associate Solicitor; Michael
J. Rutledge, Counsel for Administrative Litigation
and Legal Advice), Washington, D.C., for the
Director, Office of Workers’ Compensation
Programs, United States Department of Labor.
Before: HALL, Chief Administrative Appeals Judge,
BOGGS and ROLFE, Administrative Appeals
Judges.
HALL, Chief Administrative Appeals Judge:
Employer/carrier (employer) appeals the Decision
and Order (2014-BLA-05171) of Administrative Law
Judge Paul R. Almanza awarding benefits on a claim
filed pursuant to the provisions of the Black Lung
Benefits Act, as amended, 30 U.S.C. §§901-944 (2012)
(the Act). This case involves a claim filed on June 27,
2012.

App. 57
After crediting claimant with 27.27 years of
underground coal mine employment, 1 the
administrative law judge found that claimant has a
totally disabling respiratory or pulmonary impairment
pursuant to 20 C.F.R. §718.204(b)(2). The
administrative law judge therefore found that claimant
invoked the rebuttable presumption of total disability
due to pneumoconiosis at Section 411(c)(4) of the Act,
30 U.S.C. §921(c)(4) (2012).2 The administrative law
judge further determined that employer failed to rebut
the presumption. Accordingly, the administrative law
judge awarded benefits.
On appeal, employer contends that the
administrative law judge erred in finding that it is the
responsible operator. Employer also contends that the
administrative law judge erred in finding that the
evidence established total disability pursuant to 20
C.F.R. §718.204(b)(2) and, therefore, erred in finding
that claimant invoked the Section 411(c)(4)
presumption. Employer also contends that the
administrative law judge erred in finding that it did

1

Claimant’s coal mine employment was in Utah. Director’s Exhibit
3. Accordingly, this case arises within the jurisdiction of the
United States Court of Appeals for the Tenth Circuit. See Shupe v.
Director, 12 BLR 1-200, 1-202 (1989) (en banc).

2

Section 411(c)(4) of the Act provides a rebuttable presumption
that a miner is totally disabled due to pneumoconiosis in cases
where fifteen or more years of underground coal mine employment,
or coal mine employment in conditions substantially similar to
those in an underground mine, and a totally disabling respiratory
impairment are established. 30 U.S.C. §921(c)(4) (2012); see 20
C.F.R. §718.305.

App. 58
not rebut the presumption. Claimant responds in
support of the award of benefits. The Director, Office of
Workers’ Compensation Programs (the Director), has
filed a limited response, urging affirmance of the
administrative law judge’s designation of employer as
the responsible operator. In separate reply briefs,
employer reiterates its previous contentions of error.3
The Board’s scope of review is defined by statute.
The administrative law judge’s Decision and Order
must be affirmed if it is rational, supported by
substantial evidence, and in accordance with applicable
law. 33 U.S.C. §921(b)(3), as incorporated by 30 U.S.C.
§932(a); O’Keeffe v. Smith, Hinchman & Grylls
Associates, Inc., 380 U.S. 359 (1965). The Board
reviews the administrative law judge’s procedural
rulings for abuse of discretion. Dempsey v. Sewell Coal
Co., 23 BLR 1-47, 1-55 (2004) (en banc); Clark v. KarstRobbins Coal Co., 12 BLR 1-149, 1-153 (1989) (en
banc).
Responsible Operator
Employer initially challenges its designation as the
responsible operator. The responsible operator is the
“potentially liable operator, as determined in
accordance with [20 C.F.R.] §725.494, that most
recently employed the miner.” 20 C.F.R. §725.495(a)(1).
A coal mine operator is a “potentially liable operator”
if it meets the criteria set forth at 20 C.F.R.
3

We affirm, as unchallenged on appeal, the administrative law
judge’s finding of 27.27 years of underground coal mine
employment. See Skrack v. Island Creek Coal Co., 6 BLR 1-710, 1711 (1983); Decision and Order at 9.

App. 59
§725.494(a)-(e), one of which is that the operator must
have employed the miner for a cumulative period of not
less than one year.
Procedural Background
The district director issued a Notice of Claim to
employer on October 23, 2012, identifying it as a
potentially liable operator. Director’s Exhibit 25.
Although employer initially disputed that it employed
claimant as a miner for a cumulative period of at least
one year, it subsequently filed an amended response
and accepted liability as the responsible operator.
Director’s Exhibits 26, 27. On February 6, 2013,
employer’s Senior Staff Accountant faxed
documentation to the district director indicating that
claimant worked for employer “[i]n the mine” from
December 26, 2006 to April 11, 2007 and then from
November 16, 2010 to January 21, 2011. Director’s
Exhibit 11. Claimant also worked for employer “outside
at the loadout” from April 5, 2011 to October 14, 2011.
Id.
The district director issued a Schedule for the
Submission for Additional Evidence on May 8, 2013,
identifying employer as the named responsible operator
based on its concession.4 Director’s Exhibit 28. The
district director also preliminarily determined that

4

The district director also issued a Notice of Claim to another
operator, West Ridge Resources, which disputed that it was a
potentially liable operator. Director’s Exhibits 23, 25. Based on
employer’s concession that it was the responsible operator, the
district director dismissed West Ridge Resources as a potentially
liable operator. Director’s Exhibit 31.

App. 60
claimant was entitled to benefits. Id. Employer
responded to the schedule and disputed claimant’s
entitlement to benefits, but again conceded that it was
the responsible operator. Director’s Exhibit 29. The
district director then issued a Proposed Decision and
Order, finding that employer was the responsible
operator and that claimant was entitled to benefits.
Director’s Exhibit 30. Employer requested a hearing,
and the case was forwarded to the Office of
Administrative Law Judges (OALJ) by the district
director. Director’s Exhibits 32, 37. In sending the case
to the OALJ, the district director indicated that the
responsible operator issue was uncontested. Director’s
Exhibit 37.
Before the administrative law judge, claimant
testified with respect to the nature of the work that he
performed for employer. Specifically, claimant stated
that the “very last section” of his employment involved
work as a mine security guard and lasted for four to
five months. Hearing Transcript (Tr.) at 51-57, 64-71.
Claimant also testified that this work did not expose
him to coal mine dust because the mine was not
operational during this time. Id. Based on claimant’s
testimony, employer requested that the administrative
law judge allow it to withdraw its responsible operator
concession. Tr. at 60-63, 71-72; Employer’s PostHearing Motion to Withdraw Responsible Operator
Stipulation. Employer argued that it should be
dismissed as responsible operator because claimant’s
time as a mine security guard did not constitute coal
mine employment and, once that time was deducted
from claimant’s time with employer, claimant worked

App. 61
for employer for a cumulative period of less than one
year. Id.
In an Order issued on April 12, 2016, the
administrative law judge denied employer’s request to
withdraw its responsible operator concession, finding
that the nature of claimant’s employment with
employer was reasonably ascertainable when the claim
was before the district director. April 12, 2016 Order at
2-3. Therefore, the administrative law judge found that
he was precluded from reconsidering the responsible
operator issue pursuant to 20 C.F.R. §725.463. Id.
Discussion
Employer argues that the administrative law judge
erred in declining to reconsider the responsible
operator issue, notwithstanding its concession to the
district director. Employer’s Brief at 4-13. We disagree.
In any case referred to the OALJ for a hearing, the
district director is required to provide a “statement . . .
of contested and uncontested issues in the claim.” 20
C.F.R. §725.421(b)(7). The regulations further provide
that “the hearing shall be confined to those contested
issues which have been identified by the district
director . . . or any other issue raised in writing before
the district director.” 20 C.F.R. §725.463(a). An
administrative law judge may consider a new issue
“only if such issue was not reasonably ascertainable by
the parties at the time the claim was before the district
director.” 20 C.F.R. §725.463(b).
The administrative law judge found that the time
that claimant worked at the “[l]oadout,” as listed on the
documentation faxed to the district director by

App. 62
employer, corresponds with the time that claimant
testified that he worked as a security guard. Decision
and Order at 4. As the administrative law judge noted,
employer’s Senior Staff Accountant submitted the
document that distinguished the time period that
claimant worked “in the mine” and the period he
worked “outside at the [l]oadout.”5 April 12, 2016 Order
at 2-3; see Director’s Exhibit 11. Therefore, the
administrative law judge found that employer could
have ascertained the nature of claimant’s job duties “at
the [l]oadout” by “interviewing its own agent regarding
the evidence it submitted.” Id. Contrary to employer’s
argument, the administrative law judge did not abuse
5

We reject employer’s argument that it did not have time to
investigate the nature of claimant’s work because of the limited
time frame in which to submit evidence before the district director.
Employer’s Brief at 12-13. Specifically, employer argues that it had
ninety days from the issuance of the October 23, 2012 Notice of
Claim to submit additional documentary evidence, which
corresponds to January 21, 2013. Id. Employer contends that the
February 6, 2013 fax from its Senior Staff Accountant was brought
to the attention of its counsel on May 13, 2013, well past the
ninety-day deadline. Id. at 13 n.4. However, as the Director, Office
of Workers’ Compensation Programs, accurately notes, employer
never sought an extension of the ninety-day deadline from the
district director. Director’s Brief at 3. We note further that
employer determined the terms of claimant’s work and therefore
normally would have records relevant to the nature of his
employment (job title, etc.). Employer has not averred that it had
no records or access to relevant personnel with the requisite
information. Rather, it has argued that its counsel lacked timely
notice of the relevant information. However, the test is not that the
information was not readily ascertainable by counsel, given the
information furnished up to that point by the represented party,
it is that it was not reasonably ascertainable by the parties. See 20
C.F.R. §725.463(b).

App. 63
his discretion in finding that claimant’s job duties with
employer were reasonably ascertainable when this
matter was before the district director.6 Dempsey, 23
BLR at 1-55; Clark, 12 BLR at 1-153; see April 12, 2016
Order at 2-3. In light of this finding, the administrative
law judge properly found that he was precluded from
considering the responsible operator issue after
employer conceded it before the district director. 20
C.F.R. §725.463. Therefore, we affirm the finding that
employer is the responsible operator.
Invocation of the Section 411(c)(4) Presumption
Employer argues that the administrative law judge
erred in finding that claimant established total
disability pursuant to 20 C.F.R. §718.204(b)(2). A
miner is totally disabled if the miner has a respiratory
or pulmonary impairment which, standing alone,
prevents the miner from performing his usual coal
mine work. 20 C.F.R. §718.204(b)(1). A claimant may
establish total disability using any of four types of
evidence: pulmonary function study evidence, arterial
blood gas study evidence, evidence of cor pulmonale
with right-sided congestive heart failure, and medical
opinion evidence. 20 C.F.R. §718.204(b)(2)(i)-(iv). The
administrative law judge must consider all of the
relevant evidence and weigh the evidence supporting a
finding of total disability against the contrary evidence.
See Shedlock v. Bethlehem Mines Corp., 9 BLR 1-195,

6

We note that under the regulation the test is whether the issue
was not reasonably ascertainable by the parties at the time the
claim was before the district director. 20 C.F.R. §725.463(b).

App. 64
1-198 (1986), aff’d on recon., 9 BLR 1-236 (1987) (en
banc).
The administrative law judge found that the
pulmonary function study and arterial blood gas study
evidence was “equivocal,” and, therefore, insufficient to
support a finding of a total disability pursuant to 20
C.F.R. §718.204(b)(2)(i), (ii).7 Decision and Order at 19.
However, the administrative law judge found that the
medical opinion evidence established total disability
pursuant to 20 C.F.R. §718.204(b)(2)(iv). Id.
Employer contends that the administrative law
judge erred in his consideration of the arterial blood
gas study and medical opinion evidence.8 The

7

The administrative law judge did not make a finding pursuant to
20 C.F.R. §718.204(b)(2)(iii). However, a review of the record does
not reveal any evidence of cor pulmonale with right-sided
congestive heart failure. Claimant is therefore precluded from
establishing total disability pursuant to this subsection.

8

Employer argues that the administrative law judge erred in
finding that the pulmonary function study evidence was
“equivocal.” Employer’s Brief at 18. Employer asserts that all of
the studies are non-qualifying and, therefore, this evidence
unequivocally establishes that claimant has no obstructive
respiratory impairment. Id. However, as discussed below, the
administrative law judge ultimately found that claimant
established total disability based upon Dr. Gagon’s credible
diagnosis of arterial hypoxemia, evidenced by an exercise arterial
blood gas study. Decision and Order at 13-14, 19. As pulmonary
function studies and arterial blood gas studies measure different
types of impairment, the administrative law judge’s error, if any,
in his consideration of the pulmonary function study evidence is
harmless. See Larioni v. Director, OWCP, 6 BLR 1-1276, 1-1278
(1984).

App. 65
administrative law judge considered two arterial blood
gas studies conducted on May 26, 2010 and August 23,
2012. Decision and Order at 12-13; Director’s Exhibit
16; Employer’s Exhibit 8. The administrative law judge
found that the May 26, 2010 and August 23, 2012
resting blood gas studies were non-qualifying,9 but that
the exercise blood gas study conducted on August 23,
2012 was qualifying.10 Decision and Order at 19. The
administrative law judge assigned more weight to the
more recent blood gas study and found that the arterial
blood gas study evidence was “equivocal” on the issue
of total disability. Id.
Employer argues that the administrative law judge
erred in weighing the arterial blood gas study evidence.
Employer’s Brief at 19. Specifically, employer argues
that the administrative law judge erred in finding that
the August 23, 2012 exercise blood gas study, which
was taken in Price, Utah at an elevated altitude,
supported a finding of total disability. Id. Although
employer concedes that this study produced qualifying
values under the table at Appendix C to 20 C.F.R. Part
718 for the applicable altitude range of 3000 to 5,999

9

A “qualifying” pulmonary function study or blood gas study yields
values that are equal to or less than the values specified in the
tables at 20 C.F.R. Part 718, Appendices B and C. A “nonqualifying” study exceeds those values. See 20 C.F.R.
§718.204(b)(2)(i), (ii).

10

The May 26, 2010 blood gas study does not include any exercise
blood gas results. Employer’s Exhibit 8.

App. 66
feet,11 employer argues that Drs. Zaldivar and Selby
credibly explained why this study was still “normal.”
Id. Therefore, employer argues that the arterial blood
gas study evidence is not “equivocal.” Id. We disagree.
Because the relevant inquiry at 20 C.F.R.
§718.204(b)(2)(ii) is whether the arterial blood gas
studies “show the values listed in Appendix C to this
part,” the administrative law judge did not err in
finding that the August 23, 2012 exercise blood gas
study was qualifying for total disability under the
regulations.
In considering the medical opinion evidence
pursuant to 20 C.F.R. §718.204(b)(2)(iv), the
administrative law judge initially found that claimant’s
usual coal mine work was that of a fire boss and that
this work required medium exertional labor.12 Decision
11

As the administrative law judge recognized, the August 23, 2012
exercise blood gas study was performed at an altitude of 3,000 to
5,999 feet above sea level and produced an arterial pCO2 value of
33. Decision and Order at 13; Director’s Exhibit 16. Under the
regulatory criteria, blood gas studies performed at this altitude
and with this arterial pCO2 value are qualifying for total disability
if they produce a corresponding arterial pO2 value equal to or less
than 62. 20 C.F.R. Part 718, Appendix C. The August 23, 2012
exercise blood gas study produced an arterial pO2 value of 59.
Director’s Exhibit 16.
12

The administrative law judge found that, as a fire boss, claimant
was required to perform pre-shift and weekly examinations of the
coal mining operations and coal mining equipment, and wear a tool
belt that weighed thirty-two pounds or more. Decision and Order
at 10. Because employer does not challenge the administrative law
judge’s findings that claimant’s usual coal mine employment was
that of a fire boss and that this position required medium
exertional labor, they are affirmed. See Skrack, 6 BLR at 1-711.

App. 67
and Order at 10. The administrative law judge then
weighed the medical opinions of Drs. Gagon, Zaldivar,
and Selby. Id. at 19.
Based on his examination, Dr. Gagon diagnosed a
moderate respiratory impairment, evidenced by
subjective chronic shortness of breath and a reduction
in the pO2 value with exercise on the August 23, 2012
arterial blood gas study. Director’s Exhibit 16. In a
supplemental report, Dr. Gagon disagreed with Dr.
Zaldivar that claimant’s exercise pO2 results were
normal based on the altitude of the study. Director’s
Exhibit 39. Dr. Gagon explained that the Department
of Labor (DOL) regulations take into account the
altitude of arterial blood gas studies, and that the
August 23, 2012 arterial blood gas study “indicate[d]
hypoxemia with exercise meeting the requirements for
disability” at the 3000 to 5,999 altitude range. Id. In
his deposition, Dr. Gagon conceded that the exercise
pO2 value itself would be considered normal based on
the range used by Castleview Hospital, where the
study was conducted. Employer’s Exhibit 12 at 11-12.
However, he reiterated that the August 23, 2012 blood
gas study was still “abnormal” based on the drop in the
pO2 value from the resting to exercise blood gas study.
Id. After claimant informed Dr. Gagon of the physical
work involved in being a fire boss, Dr. Gagon opined
that claimant would not be able to perform that
physical work and would be totally disabled. Id. at 1517.
In contrast to Dr. Gagon, both Dr. Zaldivar and Dr.
Selby opined that claimant was not totally disabled by
a respiratory or pulmonary impairment. Employer’s

App. 68
Exhibits 2-5. They acknowledged that claimant’s
oxygen levels were reduced when he went from rest to
exercise on the August 23, 2012 blood gas study, but
opined that the exercise value was still not low enough
to evidence a respiratory or pulmonary impairment.13
Employer’s Exhibits 2 at 8-9; 5 at 10-11.
In explaining why claimant’s exercise blood gas
values were normal, Drs. Zaldivar and Selby disputed
whether Appendix C and the DOL regulations
accurately assess the effects of age, altitude, and
barometric pressure on arterial blood gas study results.
Employer’s Exhibits 2-5. Drs. Zaldivar and Selby
explained that the DOL’s disability standards in
Appendix C do not accurately assess the existence of a
respiratory or pulmonary impairment because the
standards are based on too broad a range of altitudes
within which a single blood gas measurement is
considered disabling. Employer’s Exhibits 2 at 1-2, 4-9;
3 at 32-33. Both doctors explained that normal pO2
values are expected to drop linearly as altitude
increases and, therefore, based on the exact altitude of
Price, Utah, one can assess a more precise pO2 value to
determine the existence of a respiratory impairment.
Id. Dr. Zaldivar indicated that the exact altitude of
Price, Utah was 5,566 feet and Dr. Selby indicated that
the exact altitude was between 5,566 feet and 5957

13

Dr. Zaldivar stated that the “only abnormality in these blood
gases is the fact that the pO2 dropped with exercise,” but opined
that the post exercise values were still normal. Employer’s Exhibit
2 at 8-9. Dr. Selby indicated that claimant’s blood gas values went
down, but went from “normal” to “[s]till within normal.”
Employer’s Exhibit 5 at 10-11.

App. 69
feet. Id. Utilizing these altitude figures, Drs. Zaldivar
and Selby indicated that the exercise blood gas study
was normal, notwithstanding the DOL regulations.14
Id. Therefore, they opined that claimant does not suffer
from a respiratory or pulmonary impairment. Id.
The administrative law judge assigned “great
weight” to Dr. Gagon’s opinion because he found that it
was well-reasoned and documented, and because he
found that Dr. Gagon discussed the specific duties of
claimant’s job as a fire boss. Decision and Order at 19.
The administrative law judge found that neither Dr.
Zaldivar nor Dr. Selby demonstrated a clear
understanding of the detailed exertional requirements
of claimant’s work. Further, he found their opinions
that claimant’s testing results were normal to be
inconsistent with the DOL regulations and the table at

14

Dr. Zaldivar cited an article entitled Arterial blood gas reference
value for sea level and an altitude of 1,400 meters, and Table 26 in
Clinical pulmonary function testing, a manual of uniform
laboratory procedures, Second Edition published by the
Intermountain Thoracic Society in 1984. Employer’s Exhibit 2 at
8-9. The article indicated that at 1400 meters, which is lower than
the altitude of Price, Utah where claimant’s arterial blood gas
study was conducted, normal pO2 is 70.8, plus or minus 4.9.Id. The
manual indicated that a normal pO2 should fall in the range
between 57 and 68. Dr. Selby noted that the Intermountain
Thoracic Society is based in Salt Lake City, Utah. Id. Dr. Selby
explained that the more accurate qualifying pO2 value should be
from the table in Appendix C for an altitude above 6000 feet,
because the altitude of Price, Utah was close to 6000 feet.
Employer’s Exhibit 3 at 32-33. Therefore, he applied the value of
57 to assess whether this study supported total disability. Id.
Because the study produced a pO2 value of 59, both doctors opined
that it was normal. Director’s Exhibit 16.

App. 70
Appendix C to 20 C.F.R. Part 718. Therefore, the
administrative law judge assigned their opinions little
weight. Id.
We reject employer’s argument that the
administrative law judge erred in finding disability
established based on his weighing of the medical
opinion evidence, as he permissibly found that, in Dr.
Gagon’s deposition testimony finding disability, Dr.
Gagnon considered the specific exertional requirements
of claimant’s usual coal mine employment, and that
Drs. Zaldivar and Selby did not demonstrate that they
were aware of claimant’s specific job requirements.15

15

Any error committed by the administrative law judge as a
consequence of his determination that the opinions of Drs. Zaldivar
and Selby were inconsistent with the regulations relating to
qualifying arterial blood gas studies is therefore harmless. See
Larioni, 6 BLR at 1-1278. We note that a medical opinion is to be
evaluated based on its documentation and reasoning. See
Gunderson v. U.S. Dep’t of Labor, 601 F.3d 1013, 1024, 24 BLR 2297, 2-315 (10th Cir. 2010). The regulations and appendix
pertaining to qualifying arterial blood gas studies are not
dispositive as to the credibility of a doctor’s opinion that a given
blood gas level is “normal” although they are relevant. Here, Drs.
Zaldivar and Selby argued that the qualifying figures in the
regulations were insufficiently adjusted for the testing altitude.
Dr. Zaldivar argued that other references were better, and Dr.
Selby argued that the next referenced qualifying point should be
employed. The administrative law judge did not consider the
merits of their arguments and their documentation. We observe
that in response to comments received before the final version of
Appendix C was promulgated, the DOL acknowledged that altitude
affects arterial blood gas values, but explained that there is not a
“straight-forward linear lowering of arterial blood oxygen tension
as the oxygen pressure in the atmosphere decreases with altitude.”
45 Fed. Reg. 13,678, 13,712 (Feb. 29, 1980). Consequently, the

App. 71
See Killman v. Director, OWCP, 415 F.3d 716, 721-22,
23 BLR 2-250, 2-258-60 (7th Cir. 2005). Because the
administrative law judge permissibly found that Dr.
Gagon’s opinion was entitled to greater weight because
it was well-reasoned and documented and he displayed
a complete understanding of the exertional
requirements of claimant’s usual coal mine
employment while those of employer’s doctors did not,
we affirm his determination of disability.16 See
Gunderson v. U.S. Dep’t of Labor, 601 F.3d 1013, 1024,
24 BLR 2-297, 2-315 (10th Cir. 2010); Killman, 415
F.3d at 721-22, 23 BLR at 2-258-60; Poole, 897 F.2d at
893-95, 13 BLR at 2-355-56; Clark, 12 BLR at 1-155.

DOL adopted a sliding scale that designated three levels of
altitude. Id. The DOL also changed the tables of Appendix C to
establish a level of arterial oxygen tension below which a miner
can be considered to be disabled regardless of age. Id. Therefore,
the values set forth in Appendix C were determined by the DOL
after consideration of elevation and the advanced age of many
miners filing claims for benefits. Poole v. Freeman United Coal
Mining Co., 897 F.2d 888, 893-96, 13 BLR 2-348, 2-355-56 (7th Cir.
1990); Big Horn v. Director, OWCP [Alley], 897 F.2d 1052, 1055, 13
BLR 2-372, 2-379 (10th Cir. 1990)(explaining that tables in
Appendix C reflect the DOL’s best estimate of the extent to which
altitude may affect blood gas tests in the black lung context).
16

Drs. Zaldivar and Selby agreed that there was an abnormality
in claimant’s blood gas study results because the oxygen level
decreased with exercise. Thus, the administrative law judge
reasonably looked to whether the physicians adequately
understood the exertional demands of claimant’s usual coal mine
work in declaring him not totally disabled. See Killman v. Director,
OWCP, 415 F.3d 716, 721-22, 23 BLR 2-250, 2-258-60 (7th Cir.
2005).

App. 72
We also affirm the administrative law judge’s
conclusion that the evidence, when weighed together,
established total disability pursuant to 20 C.F.R.
§718.204(b)(2). See Shedlock, 9 BLR at 1-198; Decision
and Order at 19. In light of our affirmance of the
administrative law judge’s findings that claimant
established at least fifteen years of qualifying coal mine
employment and the existence of a totally disabling
respiratory or pulmonary impairment pursuant to 20
C.F.R. §718.204(b)(2), we affirm the administrative law
judge’s determination that claimant invoked the
Section 411(c)(4) presumption.
Rebuttal of the Section 411(c)(4) Presumption
Because claimant invoked the Section 411(c)(4)
presumption, the burden shifted to employer to rebut
the presumption by establishing that claimant has
neither legal nor clinical pneumoconiosis,17 20 C.F.R.
§718.305(d)(1)(i), or by establishing that “no part of the
miner’s respiratory or pulmonary total disability was
caused by pneumoconiosis as defined in [20 C.F.R.]
§718.201.” 20 C.F.R. §718.305(d)(1)(ii). The
17

“Legal pneumoconiosis” includes any chronic lung disease or
impairment and its sequelae arising out of coal mine employment.
20 C.F.R. §718.201(a)(2). The definition includes “any chronic
pulmonary disease or respiratory or pulmonary impairment that
is significantly related to, or substantially aggravated by, dust
exposure in coal mine employment.” 20 C.F.R. §718.201(b).
“Clinical pneumoconiosis” consists of “those diseases recognized by
the medical community as pneumoconioses, i.e., the conditions
characterized by permanent deposition of substantial amounts of
particulate matter in the lungs and the fibrotic reaction of the lung
tissue to that deposition caused by dust exposure in coal mine
employment.” 20 C.F.R. §718.201(a)(1).

App. 73
administrative law judge found that employer failed to
establish rebuttal by either method.
In determining whether employer established that
claimant does not have legal pneumoconiosis,18 the
administrative law judge considered the medical
opinions of Drs. Zaldivar and Selby.19 Decision and
Order at 22-23. Dr. Zaldivar opined that any
respiratory or pulmonary impairment evidenced by
claimant’s arterial blood gas studies would be
unrelated to coal mine dust exposure and would be due
to pulmonary fibrosis or bronchiolitis caused by
cigarette smoking. Employer’s Exhibits 2, 4. Dr. Selby
opined that claimant “does not have any permanent
impairment of a respiratory nature,” but that if
claimant did suffer from a permanent respiratory or
pulmonary impairment based on arterial blood gas
testing, it was due to the effects of asthma and would
be unrelated to coal mine dust exposure. Employer’s
Exhibit 3 at 31-32.
The administrative law judge assigned little weight
to Dr. Zaldivar’s opinion because he found that it was
unpersuasive, explaining that it was inconsistent with
18

The administrative law judge found that employer established
that claimant does not have clinical pneumoconiosis. Decision and
Order at 20.

19

Employer argues that the revised regulation at 20 C.F.R.
§718.305(d) impermissibly requires a showing that the miner does
not have legal pneumoconiosis. Employer’s Brief at 23-24 n.6. This
argument was recently rejected by the Unites States Court of
Appeals for the Tenth Circuit in Consolidation Coal Co. v. Director,
OWCP [Noyes], 864 F.3d 1142, BLR (10th Cir. 2017). For the
reasons set forth in Noyes, we reject employer’s argument.

App. 74
the regulations and was based on generalities, rather
than claimant’s specific condition. Decision and Order
at 21. The administrative law judge assigned little
weight to Dr. Selby’s opinion, finding that his diagnosis
of asthma was not well-documented and was
inconsistent with the other medical evidence of record.
Id.
In challenging the administrative law judge’s
finding on the issue of legal pneumoconiosis, employer
asserts that the record contains no evidence of a
chronic lung disease or impairment that can meet the
definition of legal pneumoconiosis. Employer’s Brief at
23-25. However, as discussed supra, Dr. Gagon’s
credible medical opinion established that claimant
suffers from a disabling moderate respiratory
impairment with exercise, as evidenced by his arterial
blood gas studies. Therefore, employer was required to
establish that this impairment was not significantly
related to, or substantially aggravated by, coal mine
dust exposure. See Energy W. Mining Co. v. Estate of
Blackburn, 857 F.3d 817, 821-22, BLR (10th Cir. 2017);
Antelope Coal Co./Rio Tinto Energy Am. v. Goodin, 743
F.3d 1331, 1345-46, 25 BLR 2-549, 2-567-68 (10th Cir.
2014); Minich v. Keystone Coal Mining Co., 25 BLR 1149, 154-56 (2015) (Boggs, J., concurring and
dissenting); 20 C.F.R. §718.201.
Employer asserts that “[e]ven if there had been a
diagnosis of legal pneumoconiosis, both Dr. Zaldivar
and Dr. Selby specifically provided opinions as to why
[claimant] did not have legal pneumoconiosis.”
Employer’s Brief at 25. Employer, however, alleges no
specific error in regard to the administrative law

App. 75
judge’s reasons for discrediting their opinions. See Cox
v. Benefits Review Board, 791 F.2d 445, 9 BLR 2-46
(6th Cir. 1986); Sarf v. Director, OWCP, 10 BLR 1-119
(1987). Because the Board is not empowered to reweigh
the evidence, or to engage in a de novo proceeding or
unrestricted review of a case brought before it, the
Board must limit its review to contentions of error that
are specifically raised by the parties. See 20 C.F.R.
§§802.211, 802.301; Anderson v. Valley Camp of Utah,
Inc., 12 BLR 1-111, 1-113 (1989). Consequently, we
affirm the administrative law judge’s finding that
employer failed to establish that claimant does not
suffer from legal pneumoconiosis.20 See 20 C.F.R.
§718.305(d)(1)(i).
Employer also argues that the administrative law
judge erred in finding that employer failed to establish
rebuttal by establishing that no part of claimant’s
respiratory or pulmonary total disability was caused by
pneumoconiosis, pursuant to 20 C.F.R.
§718.305(d)(1)(ii). We disagree. The administrative law
judge rationally discounted the opinions of Drs.
Zaldivar and Selby because neither physician
diagnosed legal pneumoconiosis, contrary to the
administrative law judge’s finding. See Goodin, 743
F.3d at 1346, 25 BLR at 2-579; Hobet Mining, LLC v.
Epling, 783 F.3d 498, 504-05, 25 BLR 2-713, 2-721 (4th
Cir. 2015); Decision and Order at 22. We therefore
affirm the administrative law judge’s finding that
employer failed to establish that no part of claimant’s
20

Employer’s failure to disprove legal pneumoconiosis precludes a
rebuttal finding that claimant does not have pneumoconiosis. 20
C.F.R. §718.305(d)(1)(i).

App. 76
respiratory or pulmonary total disability was caused by
pneumoconiosis. See 20 C.F.R. §718.305(d)(1)(ii).
Accordingly, the administrative law judge’s Decision
and Order awarding benefits is affirmed.
SO ORDERED.

/s/Betty Jean Hall
BETTY JEAN HALL, Chief
Administrative Appeals Judge
I concur:
/s/Judith S. Boggs
JUDITH S. BOGGS
Administrative Appeals Judge
ROLFE, Administrative Appeals Judge, concurring:
I agree with my colleagues that the administrative
law judge’s findings and the award of benefits are
supported by substantial evidence. I write separately to
indicate I am not convinced the administrative law
judge simply disregarded the medical opinions of Drs.
Selby and Zaldivar because they conflicted with the
regulation regarding the qualifying levels for blood gas
studies at 20 C.F.R. §718.204(b)(2)(ii). I believe he
provided a rationale for finding their opinions
unpersuasive and for choosing to apply the regulatory
standard when he noted, accurately, that the DOL
regulations already account for the effects of elevation

App. 77
and altitude. See Big Horn v. Director, OWCP [Alley],
897 F.2d 1052, 1055, 13 BLR 2-372, 2-379 (10th Cir.
1990); Decision and Order at 19. Given that he
accurately characterized their opinions and provided a
rational basis for rejecting them, his additional
statement that he was not “permitted” to consider
further altitude adjustments was, at worst, a harmless
error, in my view. See Larioni v. Director, OWCP, 6
BLR 1-1276, 1-1278 (1984).

/s/Jonathan Rolfe
JONATHAN ROLFE
Administrative Appeals Judge

App. 78

APPENDIX D
U.S. DEPARTMENT OF LABOR
Office of Administrative Law Judges
800 K Street, NW, Suite 400-N
Washington. DC 20001-8002
(202) 693-7300
(202) 693-7365 (FAX)
Case No. 2014-BLA-05171
[Filed February 28, 2017]
_________________________________________
In the Matter of:
)
)
TONY N. KOURIANOS,
)
Claimant,
)
)
v.
)
)
HIDDEN SPLENDOR RESOURCES,
)
INC.,
)
Employer,
)
)
and
)
)
ROCKWOOD CASUALTY INSURANCE
)
CO.,
)
Carrier,
)
)
and
)
)
DIRECTOR, OFFICE OF WORKERS’
)

App. 79
COMPENSATION PROGRAMS,
Party in Interest.
________________________________________

)
)
)

DECISION AND ORDER AWARDING
BENEFITS1
This proceeding arises from a claim for benefits
under the Black Lung Benefits Act, 30 U.S.C. Parts
901-945 (the “Act”), as amended by the Patient
Protection and Affordable Care Act (“PPACA”), Pub. L.
No. 111-148, Part 1556, and the regulations issued
thereunder, which are found in Title 20 of the Code of
Federal Regulations. Benefits under the Act are
awarded to coal miners who are totally disabled within
the meaning of the Act due to pneumoconiosis, or to the
survivors of coal miners whose death was due to
pneumoconiosis. Pneumoconiosis, commonly known as
black lung disease or coal workers’ pneumoconiosis
(“CWP”), is a chronic dust disease of the lungs and its
sequelae, including respiratory and pulmonary
impairments arising out of coal mine employment. 30
U.S.C. § 902(b); 20 C.F.R. § 718.201.
PROCEDURAL HISTORY
Tony Kourianos (“Claimant,” “Miner,” or “Mr.
Kourianos”) filed this claim for benefits in June 2012.
(DX 2). I held a hearing in this matter on August 12,
2014. Claimant was not represented by counsel at the
hearing; counsel appeared on behalf of the Director,

1

Citations are abbreviated as follows: Hearing Transcript (“Tr.”),
Director’s Exhibits (“DX”), Employer’s Exhibits (“EX”), and ALJ
Exhibits (“ALJX”).

App. 80
Office of Workers’ Compensation Programs (“OWCP”),
and on behalf of the Employer. Additional evidence was
submitted after the hearing; on November 20, 2015, I
issued an evidentiary order closing the record. On April
12, 2016, I issued an Order Denying Employer’s Motion
to Withdraw Stipulation as Responsible Operator and
To Dismiss Hidden Splendor as the Responsible
Operator and Supplemental Evidentiary Order and
Briefing Schedule (ALJX 4). On May 18, 2016, the
Employer filed its Post-Hearing Brief. Neither the
Director nor the Claimant filed a post-hearing brief.
I have based my analysis on the entire record,
including the exhibits, submitted briefs, and
representations of the parties, and given consideration
to the applicable statutory provisions, regulations, and
case law. I make the following findings of fact and
conclusions of law.
APPLICABLE STANDARDS
This claim was filed after January 19, 2001. For this
reason, the current regulations at 20 C.F.R. Parts 718
and 725 apply. In order to establish entitlement to
benefits under Part 718, the Claimant must establish,
by a preponderance of the evidence, that: (1) he suffers
from pneumoconiosis; (2) his pneumoconiosis arose out
of his coal mine employment; (3) his pneumoconiosis is
totally disabling; and (4) his disabling impairment is
caused by pneumoconiosis. 20 C.F.R. §§ 718.1, 718.202
(as amended at 74 Fed. Reg. 21612–21613 (Apr. 17,
2014)), 718.203, 718.204, and 725.103. Failure to
establish any one of these elements precludes
entitlement to benefits. As the miner last engaged in
coal mine employment in the State of Utah, appellate

App. 81
jurisdiction lies with the Tenth Circuit Court of
Appeals. Shupe v. Director, OWCP, 12 B.L.R. 1-200, 1202 (1989).
ISSUES
The contested issues in this claim are:
1. The length of Mr. Kourianos’s coal mine
employment;
2. Whether Mr. Kourianos suffers from
pneumoconiosis, as defined by the Act and
regulations;
3. If so, whether Mr. Kourianos’s pneumoconiosis
arose from his coal mine employment;
4. Whether Mr. Kourianos is totally disabled; and
5. If so, whether Mr. Kourianos is totally disabled
due to pneumoconiosis.
(Tr. at 8-9).
FINDINGS OF FACT AND
CONCLUSIONS OF LAW
Mr. Kourianos was born on August 15, 1950. (DX 2).
He lives in Price, Utah. (DX 2). The parties agree that
Mr. Kourianos has one dependent, his wife, for
purposes of the augmentation of benefits. (DX 36).
1. Employment History
The Claimant bears the burden of establishing the
length of his coal mine employment. Shelsky v.
Director, OWCP, 7 B.L.R. 1-34 (1984); Niccoli v.
Director, OWCP, 6 B.L.R. 1-910 (1984). The length of a
coal miner’s employment is relevant to the applicability
of various statutory and regulatory presumptions. In

App. 82
determining the length of a miner’s coal mine
employment, an administrative law judge may apply
any reasonable method of calculation supported by
substantial evidence. Osborne v. Eagle Coal Co., No.
15-0275 BLA, slip op. at 8-10 (BRB Oct. 5, 2016); Crum
v. Champion Coal Co., No. 13-0207 BLA, slip op. at 8
(BRB Feb. 27, 2014); Clark v. Barnwell Coal Co., 22
B.L.R. 1-275, 1-280, 1-281 (2003); Muncy v. Elkay
Mining Co., 25 B.L.R. 1-21, 1-27 (2011); Vickery v.
Director, OWCP, 8 B.L.R. 1-430, 1-432 (1986).
There are multiple sources of evidence for Mr.
Kourianos’s coal mine employment: his testimony at
the hearing; his claim for benefits (DX 2); his selfreported employment history (DX 3-4); the Social
Security Administration (“SSA”) Earnings Statement
(DX 12); and records of his employment from various
employers (DX 6-11). In evaluating the record, I find
that the SSA Earning Statement is the most probative
evidence concerning the length of his coal mine
employment because it is more detailed than the
employment history form submitted by the Claimant or
Claimant’s testimony. I also find that employment
records submitted by the coal companies for which the
Miner worked are probative evidence of the Miner’s
employment history. I will rely on Claimant’s
testimony to “fill in the gaps,” where they exist, in his
employment history.
The term “miner” or “coal miner” is defined by the
regulations as:
any person who works or has worked in or
around a coal mine or coal preparation facility in
the extraction, preparation, or transportation of

App. 83
coal, and any person who works or has worked
in coal mine construction or maintenance in or
around a coal mine or coal preparation facility.
20 C.F.R. § 725.202(a). Furthermore, the regulations
provide a rebuttable presumption that
any person working in or around a coal mine or
coal preparation facility is a miner. This
presumption may be rebutted by proof that:
(1) The person was not engaged in the
extraction, preparation or transportation
of coal while working at the mine site, or
in maintenance or construction of the
mine site; or
(2) The individual was not regularly
employed in or around a coal mine or coal
preparation facility.
Id.
Mr. Kourianos testified that one portion of his coal
mining employment was not spent underground but
was spent “working at Joy Mining, cleaning
machinery.” (Tr. at 44). His SSA Earnings Statement
records that he was employed by Joy Technologies, Inc.,
between 1997 and 2005. (DX 12). Based on Claimant’s
testimony and the SSA Earnings Statement, the
Responsible Operator has rebutted the presumption
that during this period Claimant worked as a coal
miner because during this period he neither engaged in
the extraction, preparation, or transportation of coal,
nor worked in or around a coal mine or coal
preparation facility. I therefore discount this period of

App. 84
employment when calculating the length of Claimant’s
coal mine employment.
Mr. Kourianos also testified that during his “very
last section” of employment for Hidden Splendor, he
worked as a security guard for a mine, and not as a
coal miner, and furthermore, that no extraction or
preparation of coal occurred while he worked as a
security guard. (Tr. at 51-57, 64-71). Records from
Hidden Splendor Resources state that from April 5,
2011, to October 14, 2011, Claimant was employed
“Outside at the Loadout.” (DX 11). I find that this
period corresponds to the period Mr. Kourianos
testified he spent as a security guard. I will discount
this period in calculating Claimant’s length of
employment because Employer has rebutted the
presumption that during this period Claimant was
employed as a coal miner. Accordingly, Claimant’s last
coal mining employment was performed in January 21,
2011, when he was last employed by Hidden Splendor
“in the mine.” (DX 11).
I will further examine the record to determine the
length of Claimant’s coal mine employment. When
determining the length of a miner’s coal mine
employment, an administrative law judge should first
determine, if possible, the beginning and ending dates
of the miner’s period or periods of coal mine
employment. 20 C.F.R. § 725.101(a)(32)(ii); Dawson v.
Old Ben Coal Co., 11 B.L.R. 1-58 (1988). “The dates
and length of [a miner’s coal mine] employment may be
established by any credible evidence including (but not
limited to) company records, pension records, earnings

App. 85
statements, coworker affidavits, and sworn testimony.”
20 C.F.R. § 725.101(a)(32)(ii).
If the evidence is insufficient to establish the
beginning and ending dates of a miner’s coal mine
employment, an administrative law judge may use any
reasonable means of calculating the length of the
miner’s coal mine employment. Clark v. Barnwell Coal
Co., 22 B.L.R. 1-275, 1-280, 1-281 (2003). I am unable
to determine the exact dates the Miner’s employment
began and ended because the Social Security earnings
records do not provide the month and year the Miner’s
employment with various employers began or ended.
(DX 12).
For years prior to 1978, the Board has held that
counting quarters in which a miner’s Social Security
earnings record show that he earned at least $50.00
from coal mine employment, and not counting quarters
in which the earned less than $50.00 from coal mine
employment, is a reasonable method of calculating the
length of a miner’s coal mine employment. Tackett v.
Director, OWCP, 6 B.L.R. 1-39 (1984); Crum, slip op. at
6. Accordingly, I will use the $50.00 per quarter
method to determine the length of the Miner’s coal
mine employment for all years prior to 1978.
For those years between 1978 and the present, if I
can determine that the Miner was continuously
employed with a single employer for a full calendar
year (in this case, in the years 1979-85 and 2008-09), I
will credit the miner with one year of coal mine
employment if I determine that he worked in or around
coal mines at least 125 days during that year by
comparing his earnings to the average earnings for a

App. 86
125-day period, as set out in Exhibit 610.2 If the
Miner’s earnings exceeded the industry average for 125
days, he is credited with one year of coal mine
employment, but if the Miner’s earnings are less than
the industry average, I will divide his earnings by the
industry average for 125 days to credit the Miner with
a portion of a year.
For the years from 1978 to the present where
personnel records and Claimant’s testimony present a
more detailed record showing that the Miner was not
employed in coal mine employment continuously for an
entire year but instead show when he began and ended
each period of coal mine employment (in this case,
1978, 2005, 2006, 2007, 2010, and 2011), I will use this
direct evidence to determine the Miner’s length of
employment. See Osborne, slip op. at 9-10 and n. 13
(Board notes preference for use of direct evidence).
Under the regulations, a year of coal mine employment
is defined as follows:
Year means a period of one calendar year (365
days, or 366 days if one of the days is February
29), or partial periods totaling one year, during
which the miner worked in or around a coal
mine or mines for at least 125 “working days”
....

2

Exhibit 610 of the Office of Workers’ Compensation Programs
Coal Mine (BLBA) Procedure Manual, Average Earnings of
Employees in Coal Mining, contains the coal mine industry’s
average daily earnings for each year and the average earnings for
125 days. See http://www.dol.gov/owcp/dcmwc/exh610.htm (last
visited Dec. 20, 2016).

App. 87
i. If the evidence establishes that the miner
worked in or around coal mines at least
125 working days during a calendar year
or partial periods totaling one year, then
the miner has worked one year in coal
mine employment for all purposes under
the Act. If a miner worked fewer than 125
working days in a year, he or she has
worked a fractional year based on the
ratio of the actual number of days worked
to 125. Proof that the miner worked more
than 125 working days in a calendar year
or partial periods totaling a year, shall
not establish more than one year.
20 C.F.R. § 725.101(a)(32). I apply this method to
determine the Miner’s coal mine employment in 1978,
2005, 2005-07, and 2010-11, the years in which mine
personnel records record that Claimant was employed
for less than a full calendar year.
For those years between 1978 and the present, if I
cannot determine the beginning and ending dates of
the Miner’s employment, I will compare his earnings
from coal mine employment to the daily average
earnings of employees in coal mining, as set out in
Exhibit 610.3 That will produce an estimate of the
3

Under Crum, it was possible to use Exhibit 609 to calculate the
length of a miner’s coal mine employment in cases in which the
beginning and end dates of a miner’s coal mine employment could
not be established. In Osborne, however, the Board held that
relying on Exhibit 609 to determine the length of a miner’s coal
mine employment “is not appropriate because it contains a wage
base that is not specific to the coal mine industry.” Osborne, slip

App. 88
number of days the Miner actually worked in coal
mining that year. The Board has declined to instruct
the administrative law judge to use “125 days” as a
divisor when calculating a fractional portion of a year.
Osborne, slip op. at 9. I find that using 250 days as a
divisor is a reasonable method of computation when
using the Exhibit 610 daily earnings data to calculate
a fractional portion of a year of coal mine employment
because a coal miner whose earnings from coal mine
employment equal 250 days of average daily earnings
from coal mine employment will very likely have
worked in coal mine employment for a full calendar
year.
Specifically, I have determined that 250 days is an
appropriate divisor by calculating as follows: 365
calendar days minus 104 weekend days, minus ten
days of vacation time, minus 9 federal holidays results
in 242 days, plus 8 days to account for overtime work.
While of course 250 days is an estimate, and there may
be cases (such as those where a miner worked
significant overtime, worked many weekend days,
and/or took little or no vacation) where a miner worked
for less than a calendar year in coal mine employment
but had earnings from coal mine employment equal to
op. at 9 (footnote omitted). While the Board in Osborne did not
mention Crum (or any other case upholding the use of Exhibit 609)
by name, it noted that “[t]o the extent that there are prior Board
decisions that are inconsistent with our present holding
[concerning the use of Exhibit 609], they are overruled.” Id., n. 11.
I find that using the Exhibit 610 average daily earnings data to
calculate fractional portions of a year of coal mine employment in
years where I cannot establish the beginning and end dates of a
miner’s employment is reasonable.

App. 89
250 days of average daily earnings from coal mine
employment, I nevertheless find that this estimate is a
reasonable method of calculating a fractional portion of
a year of coal mine employment.
Accordingly, for years in which I cannot establish
the start and end dates of the Miner’s coal mine
employment, I will divide the Miner’s earnings from
coal mine employment by the Exhibit 610 average daily
earnings for that year to arrive at an estimate of actual
days of coal mine employment, and then will divide
that number of days by 250 to calculate a fractional
portion of a year of coal mine employment.
1972-1977
Year
1972
1973
1974
1975
1976
1977

Number of Qtrs
> $50
2
4
4
4
3
4

Years of CME
.5
1
1
1
.75
1
Total CME 19721977: 5.25 years

1979-85 and 2008-09
Based on Valley Camp of Utah’s personnel records,
Mr. Kourianos was continuously employed as a coal
miner in calendar years 1979-1985. (DX 7). Based on
West Ridge Mine’s records, he was also continuously
employed as a coal miner in calendar years 2008-09.

App. 90
(DX 9). I find the Miner had the following amounts of
coal mine employment using the Exhibit 610 method
using the average earnings from 125 days of coal mine
employment data:
Year

1979
1980
1981
1982
1983
1984
1985
2008
2009

Total
Earnings4
$25,807.74
$25,900.00
$29,700.00
$32,400.00
$35,700.00
$37,800.00
$39,600.00
$57,887.04
$91,321.92

Industry
Avg. 125
days’ CME
$10,878.75
$10,927.50
$12,100.00
$13,720.00
$14,800.00
$15,250.00
$10,927.50
$23,270.00
$26,140.00

Years of
CME
1
1
1
1
1
1
1
1
1
Total CME
1979-85 and
2008-09: 9
Years

1978, 2005-07, and 2010-11
For these years and periods of these years,
personnel records (identified in the table infra) present
a more detailed record showing that the Miner was not
employed in coal mine employment continuously for an
entire year. I will use this direct evidence to determine

4

Based on Mr. Kourianos’s SSA Earnings Statement. See DX 12.

App. 91
the Miner’s length of coal mine employment for these
years.
Period of
Employment

1/1/197811/8/1978
(DX 6)
11/20/197812/31/1978
(DX 7)
9/15/200512/31/2005
(DX 9)
1/1/200612/18/2006
(DX 9)

Days

312

Calendar
Partial
Employment Employment
Year
Year
Credited
Credited
.85 (312/365
=.85)

108

.3 (108/365
= .3)

358

.98 (358/365
=.98)

359

.98 (359/365
=.98)

12/26-12/31
(DX 11)
1/1/20074/11/2007
(DX 11)
4/18/200712/31/2007
(DX 9)

App. 92
1/1/20106/8/2010
(DX 9)

204

.55 (204/365
=.55)

20

.05 (20/365
= .05)
Total CME
1978, 2005,
2006, 2007,
2010:
3.71 years

11/16/201012/31/2010
1/1/20111/21/2011

1987-97
For these years and periods of these years, the
record establishes that the Miner was employed as a
coal miner for part of each year, but the start and end
dates of his employment cannot be determined. I find
the Miner had the following amount of coal mine
employment using the Exhibit 610 method using the
average daily earnings data, with 250 days as the
divisor to calculate a fractional portion of a year:
Year

1987
1988
1989
1990

Total
Earnings
$25,619.09
$37,804.00
$47,268.61
$49,394.88

Industry
Avg. Daily
Earnings
$126.00
$127.52
$130.00
$133.68

Years of
CME
.81
1
1
1

App. 93
1991
1992
1993
1994
1995
1996
1997

$43,292.81
$46,312.66
$48,359.99
$32,117.45
$16,462.44
$31,181.10
$12,124.41

$136.64
$137.60
$138.08
$142.08
$147.52
$149.92
$152.08

1
1
1
.90
.45
.83
.32
Total CME
1987-97:
9.31 years

Total Coal Mine Employment
I find that Mr. Kourianos has 27.27 years of coal
mine employment. This includes 5.25 years from 1972
to 1977 calculated using the $50.00 per quarter
method; 9 years (1979-1985 and 2008-09) calculated
using the Exhibit 610 method using the average
earnings for 125 days data; 3.71 years in the years
1978, 2005, 2006, 2007, 2010, and 2011 calculated
using direct evidence; and 9.31 years in 1987-97
calculated using the Exhibit 610 method using the
average daily earnings data, with 250 days used as a
divisor to calculate a year or a fractional portion of a
year. I find all of Mr. Kourianos’s coal mine
employment to have been underground. (Tr. 43).
Mr. Kourianos Performed “Medium Work”
in his “Usual Coal Mine Work”
It is claimant’s burden to establish the exertional
requirements of the miner’s “usual coal mine work”,
which then provide a basis to evaluate medical

App. 94
assessments of a miner’s capabilities and to reach a
conclusion regarding total disability. Hall v. Carbon
River Coal Corp., BRB No. 15-0008, slip op. at 5 (BRB
Oct. 19, 2015) (citing McMath v. Director, OWCP, 12
BLR 1-6 (1988); Cregger v. U. S. Steel Corp., 6 BLR 11219 (1984)). A miner’s usual coal mine work is “the
most recent job the miner performed regularly and over
a substantial period of time.” Shortridge v. Beatrice
Pocahontas Coal Co., 4 BLR 1-534, 1-539 (1982). “This
determination must be made on a case by case basis
and will vary depending upon the employment history
in the individual case.” Id.
Mr. Kourianos worked in various capacities as a
coal miner, and his different duties required different
levels of physical exertion. As noted above, I find that
the time Claimant spent in 2012 working as a security
guard does not qualify as coal mining employment.
Prior to working as a security guard, Claimant worked
as a contractor for Hidden Splendor Resources. (Tr. at
53-54). As a contractor, Mr. Kourianos would “watc[h]
the guys mine” and “critiqu[e] them,” as well as load
ten pound bags of coal samples. (Tr. at 53). During his
deposition of Dr. Shane Gagon (see infra), Claimant
characterized this work as “a piece of cake,” and stated
that he could perform those duties “for another ten,
fifteen years.” (DX 12 at 21). If I found that the work
Claimant performed for Hidden Splendor Resources
was his usual coal mine employment, then there would
be little question that Claimant is not totally disabled.
But I find that the work Claimant performed for
Hidden Splendor was not his usual coal mine
employment. Claimant testified that he worked in that

App. 95
position for seven or eight months in 2010 and 2011.
(Tr. at 40). He testified that he was employed as a
contractor. (Tr. at 54). Hidden Splendor’s personnel
records indicate that Claimant worked in the mines
from November 2011 to January 2012. (DX 11). His
SSA Earnings Statement shows that he earned
relatively little compensation for his work for Hidden
Splendor. (DX 12). And I have credited Claimant with
much less than six months of work for the duties he
performed at Hidden Splendor during 2010 and 2011.
Accordingly, given the short period of time in which he
worked, his status as a contractor, and his relatively
low earnings, I find that the work Claimant performed
for Hidden Splendor was not his usual coal mine work.5
See Hall, slip op. at 5 (affirming administrative law
judge’s determination that the six months a claimant
spent as a truck driver was not his usual coal mine
work).
Instead, I find that the work Claimant performed
for West Ridge Resources between April 2007 and June
2010, his penultimate coal mining employment, is his
usual coal mine work. See DX 9. More specifically, I

5

This finding is consistent with Hidden Splendor’s status as the
Responsible Operator. In my April 2016 Order (ALJX 4), I denied
Employer’s request to withdraw from its stipulation as the
Responsible Operator and to be dismissed from the claim because
I found that it had previously stipulated to Responsible Operator
status, and because I found that the nature of Mr. Kourianos’s
employment for Hidden Splendor was reasonably ascertainable
when this claim was before the District Director. (ALJX 4 at 3). I
made no finding in that Order regarding whether the work
Claimant performed for Hidden Splendor was his usual coal mine
work.

App. 96
find that the work that Claimant performed as a fire
boss between October 2009 and June 2010, the last job
title he held as a West Ridge employee (see DX 9 at 2),
constituted his usual coal mine work. Mr. Kourianos
testified that as a fire boss, he performed pre-shift
examinations and weekly exams of the coal mine.
Examinations involved “visual exams” of the mining
operations and equipment. (Tr. at 41). He testified that
he wore a tool belt that weighed thirty to thirty-two
pounds, or more. (Tr. at 45-46). Accordingly, I find that
Claimant’s usual coal mine employment qualifies as
“medium work” under 20 C.F.R. § 404.1567(c).
2. Mr. Kourianos Has a 16.5 Pack-Year Smoking
History
Claimant testified that he began smoking in 1970
and continued to smoke through the date of the
hearing, August 2014. (Tr. at 48-50). He testified that
he smoked a half-pack of cigarettes during half of this
forty-four year period, and a quarter-pack of cigarettes
during the other half, for an average of 7.5 cigarettes a
day for forty-four years. (Tr. at 50). I find Claimant’s
testimony to be credible, and largely consistent with
the smoking history he provided during a DOLsponsored medical examination. (DX 16). I therefore
credit Claimant with a 16.5 pack-year smoking history.
MEDICAL EVIDENCE
1. ILO-U/C X-rays
When weighing chest X-ray evidence, the provisions
at 20 C.F.R. § 718.202(a)(1) require that “where two or
more X-ray reports are in conflict, in evaluating such
X-ray reports consideration shall be given to the

App. 97
radiological qualifications of the physicians
interpreting such X-rays.” 20 C.F.R. § 718.202(a)(1). To
that end, the Board holds that it is proper to accord
greater weight to the interpretation of a B Reader or
Board Certified Radiologist over the interpretation of
a physician without these specialized qualifications.
Roberts v. Bethlehem Mines Corp., 8 B.L.R. 1-211
(1985); Allen v. Riley Hall Coal Co., 6 B.L.R. 1-376
(1983). Moreover, an interpretation by a duallyqualified B Reader and Board Certified Radiologist
may be accorded greater weight than a B Reader’s
interpretation. Roberts v. Bethlehem Mines Corp., 8
B.L.R. 1-211 (1985); Sheckler v. Clinchfield Coal Co., 7
B.L.R. 1-128 (1984).
This case contains the following X-ray evidence
interpreted according to the ILO-U/C classification
schema:

Dr. Ralph
Shipley

B/BCR

1

1

1

1

Negative

Negative

Negative

Negative

B = B Reader; BCR = Board Certified Radiologist; B Readers and Board Certified Radiologists are deemed
the most qualified. See Mullins Coal Co. v. Director, OWCP, 484 U.S. 135, 145 n. 16, (1987); Old Ben Coal
Co. v. Battram, 7 F.3d 1273, 1276 n. 2 (7th Cir. 1993).

6

8/23/2012 6/26/2014

EX 11

B/BCR

8/23/2012 5/8/2014

EX 10

Dr. Robert
Tarver

Dr.
B/BCR
Christopher
Meyer

8/23/2012 6/4/2013

DX 17/
EX 1

BCR

Dr. Roy C.
Hammond

Physician Qualifications6 Film
Reading
Quality

8/23/2012 8/28/2012

Date of
Reading

DX 16

Exhibit # Date of
Study

App. 98

App. 99
2. Narrative X-rays
The following narrative x-rays were admitted to the
record:
• EX 8 at 30: A February 12, 2013 chest x-ray from
Castleview Hospital was interpreted to show that
“[t]he lungs are clear without focal opacity.”
• EX 6 at 77: An October 29, 2009 chest x-ray from
Castleview Hospital was interpreted to show “[n]o
focal pulmonary infiltrates.”
• EX 6 at 88-89: A February 15, 2008 chest x-ray from
Castleview Hospital was interpreted to show that
“[t]he lung fields are clear” and a “[n]ormal chest.”
3. Pulmonary Function Tests
Total disability may be established by a
preponderance of qualifying pulmonary function
testing. 20 C.F.R. § 718.204(b)(2)(i). Pulmonary
function tests are performed to measure obstruction or
restriction in the airways of the lungs and the degree
of impairment of pulmonary function. Tests most often
relied upon to establish disability in black lung claims
measure forced vital capacity (“FVC”), forced expiratory
volume in one second (“FEV1”) and maximum voluntary
ventilation (“MVV”).
Pulmonary function testing results may qualify a
miner as “totally disabled” if FEV1 is equal to or lesser
than the values listed in appendix B for a miner of
similar gender, age, and height, and either (1) the MVV
or FVC values equal or fall below those values listed at
Appendix B, or (2) the result of the FEV1 divided by the
FVC is equal to or less than 55 percent. See 20 C.F.R.
§ 718.204(a)(2)(i). I have listed the highest value

App. 100
obtained for each category during the test. See Rhen v.
Director, OWCP, BRB No. 04-0862 BLA (July 27, 2005).
The quality standards for pulmonary function
testing are located at 20 C.F.R. § 718.103 and require,
in relevant part, that (1) each study be accompanied by
three tracings, Estes v. Director, OWCP, 7 B.L.R. 1-414
(1984); (2) the reported FEV1 and FVC or MVV values
constitute the best efforts of three trials; and (3) testing
conducted after January 19, 2001 be accompanied by a
flow-volume loop. 20 C.F.R. §§ 718.101(b) and
718.103(a) and (b).

Pre:

Pre:

Yes/Yes

Good/
Good
Yes/Yes
Good/
Not
reported

59/70
EX 8 at
70
5/26/2010
Castleview
Hospital

3.43

3.8

4.39 136

5.33 123

78

71

No

No

Tracings
CooperFEV1/
and
Bronchoation/
Flow
dilator
FEV1 FVC MVV FVC Qualify”?
CompreRatio
Volume (pre/ post)
hension
Loop

62/72
DX 16
8/23/2012
Dr. Gagon

Exhibit/
Age/
Date of
Height
Test/
(in.)
Physician

App. 101

App. 102
4. Arterial Blood Gas Studies
Total disability may be established by qualifying
blood gas studies under 20 C.F.R. § 718.204(b)(2)(ii).
Blood gas studies are performed to measure the ability
of the lungs to oxygenate blood. A defect will manifest
itself primarily as a fall in arterial oxygen tension
either at rest or during exercise. The blood sample is
analyzed for the partial pressure of oxygen (“PO2”) and
the partial pressure of carbon dioxide (“PCO2”) in the
blood. A lower level of oxygen (“O2”) compared to carbon
dioxide (“CO2”) indicates a deficiency in the transfer of
gases through the alveoli which may leave the miner
disabled.
Blood gas study results may qualify a miner as
totally disabled if the PO2 values corresponding to the
PCO2 values are equal to or less than those found at
the tables of Appendix C. 20 C.F.R. § 718.204(b)(2)(ii).
Notably, the tables at Appendix C do not permit
“rounding up” or “rounding down” of the PCO2 or PO2
values; rather, each value must be “equal to or less
than” the applicable table value. Tucker v. Director,
OWCP, 10 B.L.R. 1-35 (1987). If the results of a blood
gas test at rest do not satisfy Appendix C, then an
exercise blood gas test can be offered. More weight may
be accorded to the results of a recent blood gas study
over a study that was conducted earlier.

App. 103
Exhibit/
Date of
Test

Physician Altitude PCO2
(feet)

PO2

Qualify
?

DX 16
Dr. Gagon 3,0008/23/2012
5,999

39
68
No
(resting) (resting) Yes
33
59
(exercise) (exercise)

EX 8 at 72 Castleview 3,0005/26/2010 Hospital 5,999

43
60
No
(resting) (resting)

5. Medical Reports
Dr. Gagon
Dr. Shane Gagon examined Claimant on August 23,
2012, and prepared a medical report dated October 9,
2012. (DX 16). Dr. Gagon did not detail Claimant’s
employment history. (DX 16). He stated that Claimant
smoked a half-pack of cigarettes daily. (DX 16). Dr.
Gagon noted that Claimant suffered from daily sputum
production and daily wheezing, and that he suffered
from cough with exertion “or cold.” (DX 16).
Dr. Gagon stated that Claimant suffered from
“moderate impairment with subjective chronic
shortness of breath with minimal exertion and PO2
with exercise.” (DX 16).
Dr. Gagon diagnosed chronic bronchitis with a
chronic productive cough and a significant drop in PO2
levels with exercise. (DX 16). Dr. Gagon stated that
Claimant’s chronic bronchitis was caused by “coal dust
exposure and smoking,” and that smoking and coal
dust represented “probably equal contributions.” (DX
16).

App. 104
Dr. Gagon prepared a supplemental report dated
August 24, 2014, in which he responded to Dr.
Zaldivar’s criticism that the August 23, 2012 arterial
blood gas study did not properly take into account the
altitude of Price, Utah (see infra). (DX 39). In the
report, in response to Dr. Zaldivar’s statement that
Claimant’s “blood gas studies appear very low but they
are not when taking into consideration the altitude of
Price, UT” (see EX 2 at 8), Dr. Gagon stated that the
blood gas studies did take into account the altitude,
and that based on the regulatory tables Claimant met
the requirements for disability. (DX 39). Dr. Gagon
stated that he “suspect[ed]” that a technician did not
properly record the barometric pressure for the blood
gas studies, but that an incorrect barometric pressure
recording “does not change the results of the test.” (DX
39). He stated that the results of the study “indicate
hypoxemia with exercise meeting the requirements for
disability” at the 3,000-5,999 foot altitude range. (DX
39). He stated that although “[s]moking probably
contributes” to Claimant’s drop in exercise PO2, that
exposure to coal dust “is also a significant contributing
factor.” (DX 39). He stated that he agreed that
Claimant “could work as long as the work is sedentary.
However, with his significant hypoxemia with exercise,
he would be limited with any exertion.’ (DX 39).
Dr. Gagon was deposed on February 16, 2016. (EX
12). He initially stated that Claimant “would be able to
work in the coal mine,” but “not at the same degree
with someone with no abnormalities” and “[a]s long as
his job was fairly sedentary.” (EX 12 at 12). Initially, he
stated that although he did not know the specifics of
the job duties performed by a fire boss or safety

App. 105
manager, that he “suspect”-ed that Claimant would be
able to perform that job because it was “not as
physical” as other coal mining jobs. (EX 12 at 13). But
based on Claimant’s description of the more physical
job he performed in his usual coal mine work as a fire
boss at West Ridge during cross-examination, Dr.
Gagon stated that Claimant would not be able to
perform the described job duties. (EX 12 at 14-15).
Dr. Zaldivar
Dr. George Zaldivar prepared a medical report
based on his review of medical records7 dated June 11,
2013. (EX 2 at 7-10). He stated that Claimant’s
“complete work history was not given.” (EX 2 at 7). He
stated that Claimant began smoking in 1970 and
continued smoking a half-pack of cigarettes a day at
the time of the report. (EX 2 at 7). He noted symptoms
of chronic bronchitis for one-and-a-half years and night
wheezing. (EX 2 at 7). He also noted that “[l]ungs
showed decreased breath sounds.” (EX 2 at 7).
Dr. Zaldivar noted Dr. Forehand’s interpretation of
the August 23, 2012 x-ray, which was read as negative
for pneumoconiosis. (EX 2 at 8). Dr. Zaldivar stated
that the ventilatory study dated 8/23/2012 from
Castleview Hospital was “invalid” because only one
tracing showed no hesitation during exhalation;
nevertheless, he stated that the results were “normal
for a 62 year-old male.” (EX 2 at 8).

7

Dr. Zaldivar did not note the specific records that he reviewed,
other than the evidence included in Dr. Gagon’s report. (EX 7).

App. 106
Dr. Zaldivar noted that in Dr. Gagon’s report, the
results of Claimant’s blood gas study demonstrated a
“moderate impairment with subjective chronic
shortness of breath on minimal exertion and a drop of
PO2 with exercise.” (EX 2 at 7). Dr. Zaldivar stated that
the “blood gas studies appear very low but they are not
when taking into consideration the altitude of Price,
UT.” (EX 7 at 8). Dr. Zaldivar stated that the
barometric pressure recorded for the blood gas study,
767 mmHg, “could not be correct.” (EX 7 at 8).
He stated that “[c]onsidering that the chest x-ray is
normal and that the ventilatory study is normal, the
only abnormality that could explain this drop in the
PO2 would be a low diffusion capacity of a pulmonary
fibrosis or a bronchiolitis of a smoker . . . . My opinions
considering the totality of the case is that
pneumoconiosis is not present.” (EX 2 at 8-9). Dr.
Zaldivar also stated that his understanding of the
equipment used for the blood gas study required that
the equipment be set at “the actual pressure at the
altitude of the laboratory. If the actual pressure is not
used, the measured results would be inaccurate.” (EX
2 at 9).
Based on his review of the records, Dr. Zaldivar
concluded that Claimant does not suffer from simple or
complicated clinical pneumoconiosis. (EX 2 at 9).
Furthermore, he stated that Claimant demonstrated
“no pulmonary impairment based on the spirometry or
the blood gases,” and that Claimant was not disabled,
as he did not exhibit “any pulmonary impairment that
would prevent him from performing his usual coal
mining work.” (EX 2 at 9). He stated that Claimant was

App. 107
not disabled from working his “usual coal mining
work.” (EX 2 at 9). Furthermore, he stated that “if
there is any pulmonary condition at all, it is
bronchiolitis caused by smoking.” (EX 2 at 9).
Dr. Zaldivar prepared a supplemental report dated
September 6, 2013. (EX 2 at 4-6). In that report, he
criticized DOL regulations regarding blood gas studies:
although he noted that “[t]he law is written the way it
is written,” he stated that “the effects of altitude in
human physiology contradict[t] using 3,000 feet of
difference in altitude as being equivalent”; he stated
that his report took “into consideration the
physiological findings by citing actual medical
literature to reach accurate and valid conclusions.” (EX
2 at 5).
Dr. Zaldivar in this supplemental report also cited
to medical literature to explain his diagnosis of
bronchiolitis, which he stated was a “disease of
smokers that can cause pulmonary fibrosis.” (EX 2 at
6). He stated that:
Regarding my having ignored Mr. Kourianos’s
work history of 26 years when explaining the
drop in the blood gases, it is very important to
remember that coal miners are human beings
subject to all diseases and conditions of human
beings and are affected by habits such as
smoking just as the population at large is
affected by it.
(EX 2 at 5).
Dr. Zaldivar prepared a second supplemental report
dated February 26, 2014, based on his review of

App. 108
Claimant’s treatment records. (EX 2 at 1-3). Dr.
Zaldivar stated that the records made “evident that
[Claimant] has never complained of any lung problems,
at least to his physician,” and that “no mention has
been made of any pulmonary problems.” (EX 2 at 3).
Based on these records, “I question the accuracy of the
result of the blood gases.” (EX 2 at 3).
Dr. Zaldivar was deposed on April 21, 2014. (EX 4).
He testified that he would consider thirty-three to
thirty-nine years of coal mine employment significant
because the likelihood of developing pneumoconiosis
increased with exposure to coal dust. (EX 4 at 8-9). He
testified that barometric pressure was “very, very
important” for arterial blood gas studies, and that a
test taken at higher elevations can be expected to yield
lower PO2 values. (EX 4 at 13-15). He testified that the
results of Claimant’s arterial blood gas study tests
were “normal.” (EX 4 at 16). Dr. Zaldivar stated that
this was the case, despite Department of Labor
regulations that found the results of Claimant’s
arterial blood gas testing to show that he was disabled,
because the regulation did not accurately reflect the
drop in PO2 values that occurs at higher altitudes. (EX
4 at 17). He testified that the values obtained after
exercise would have been in the normal range if the
tests had been taken at a lower altitude. (EX 4 at 1819). Dr. Zaldivar testified that the drop in PO2 levels
was not “normal” but was “acceptable”; however, he
stated that the drop was due to Claimant suffering
from bronchiolitis caused by smoking. (EX 4 at 19-20).
He also testified that if Claimant suffered from chronic
bronchitis, that that was caused by his smoking. (EX 4
at 22-23).

App. 109
Dr. Zaldivar concluded at his deposition that
Claimant was not disabled, based on his arterial blood
gas studies, because the drop in levels was due to the
altitude at which the tests were performed; he stated
that Claimant could work as a fire boss (although Dr.
Zaldivar was not presented with and did not discuss
the specific duties required by that position). (EX 4 at
24-25). He concluded that Claimant did not suffer from
clinical pneumoconiosis, based on the x-ray readings.
(EX 4 at 23-24). He concluded that Claimant did not
suffer from legal pneumoconiosis, because although the
drop in PO2 levels was attributed to the altitude of the
testing, that any “abnormality” was caused by
Claimant’s smoking. (EX 4 at 24).
Dr. Selby
Dr. Jeff Selby prepared a medical record review
dated June 25, 2013, for which he reviewed Dr. Gagon’s
August 23, 2013 report. (EX 3 at 29-36). Dr. Selby did
not note Claimant’s employment history, other than to
stated that he “worked for West Ridge as a fire boss
and safety manager from 7/05 to 6/10.” (EX 3 at 29). He
stated that Claimant currently smoked a half-pack of
cigarettes daily and began smoking in 1970. (EX 3 at
30).
Dr. Selby concluded that Claimant does not have
simple or complicated coal worker’s pneumoconiosis, as
there was no x-ray evidence of clinical pneumoconiosis.
(EX 3 at 31). Dr. Selby concluded that Claimant “does
not have any permanent impairment of a respiratory
nature,” but that “[i]f he is ever found to have
respiratory impairment it will be the effects of asthma
more likely than not.” (EX 3 at 31).

App. 110
Dr. Selby stated that Claimant’s symptoms,
including wheezing, productive cough, and decreased
PO2, indicated “a very strong presentation for the
diagnosis of asthma,” and that Claimant’s lack of
wheezing during his physical exam “in no way
dismisses the diagnosis of asthma.” (EX 3 at 32). Dr.
Selby stated that Claimant’s asthma was exacerbated
by his cigarette smoking, and stated that coal mine
dust exposure did not contribute to his asthma: “In
fact, working in coal mines prohibits the inhalation of
cigarette smoking, thus actually protecting the lungs.”
(EX 3 at 32).
Dr. Selby stated that although Claimant’s arterial
blood gas study yielded a qualifying value, that the
“blood gas analyzers are only accurate to a value of + or
– 3 mm Hg.” (EX 3 at 33). He also noted that Price,
Utah, is more than 5,000 feet above sea level, and
“[s]ince there is a known linear drop in PO2 with
increasing altitude,” that the range of disability “would
be more accurately defined toward the PO2 of 57 value.”
(EX 3 at 33).
Dr. Selby prepared a supplemental record review
after reviewing extensive treatment notes from 1990 to
2013. (EX 3 at 1-28). Based on his review of these
records, he maintained his opinion that Claimant does
not suffer from clinical or legal pneumoconiosis. (EX 3
at 27). He stated that Claimant was “strongly addicted
to narcotics for years,” that “[n]arcotics blunt sigh and
cough reflexes that can lead to hypoxia through
microatelectasis and other means,” and that “[t]his in
association with active smoking could easily explain

App. 111
the low PO2 he experienced during exercise testing.”
(EX 3 at 27).
Dr. Selby was deposed on June 17, 2014. (EX 5). Dr.
Selby acknowledged that twenty-six years of coal
mining employment was sufficient time for a miner to
develop coal workers’ pneumoconiosis. (EX 5 at 7). He
stated that the only “significant” issue that arose from
Dr. Gagon’s examination was Claimant’s PO2 level,
which Dr. Selby stated was “a bit low at first glance at
rest, and then the PO2 decreased with exercise.” (EX 5
at 6). Dr. Selby stated that Claimant’s PO2 values both
at rest and with exercise were “normal.” (EX 5 at 10).
He stated that Claimant’s PO2 value might have
decreased because of technical problems with testing,
or because Claimant suffered from “some form of
disease.” (EX 5 at 10-11). But because both resting and
exercise values were within “within normal, it’s not
really a significant disease.” (EX 5 at 11). Dr. Selby
stated that Claimant’s PO2 values could likely be
“undiagnosed asthma,” “chronic bronchitis from
smoking,” or “congestive heart failure.” (EX 5 at 12).
Dr. Selby concluded at the deposition that Claimant
did not suffer from clinical or legal pneumoconiosis.
(EX 5 at 13-14). He stated that based on the pulmonary
function testing and arterial blood gas studies, that
Claimant was “[n]ot even close” to being disabled due
to a pulmonary condition. (EX 5 at 14). He testified
that that Claimant had the capacity to work as a fire
boss (although Dr. Selby was not presented with and
did not discuss the specific duties required by that
position). (EX 5 at 14-15).

App. 112
6. Treatment Records
Extensive treatment records from 1990 to 2014 have
been admitted to the record. (EX 6-EX 9). Few of these
records, however, pertain to Claimant’s respiratory or
pulmonary condition. I note that Claimant was found
to have “no history of pulmonary disorder or asthma”
on March 7, 1990. (EX 6 at 205-08). Claimant’s lungs
were clear on April 8, 1993. (EX 6 at 197). He had
“difficulty breathing” and his lungs “showed some
decreased breath sounds” on June 11, 1996; he was
diagnosed with bronchitis and dyspnea. (EX 6 at 195).
His lungs were clear on June 21, 2005. (EX 6 at 137).
On February 15, 2008, he arrived at a hospital
emergency room with flu-like symptoms, and had
trouble breathing, but a chest x-ray was read as
normal. (EX 6 at 110). On March 6, 2008, his lungs
were again clear; and on October 29, 2009, although he
complained of a cough, his lungs were again clear
without rhonchi or wheeze. (EX 6 at 131, 125). On
January 15, 2010, his lungs showed “bilateral air
exchange with no wheezing or crackles.” (EX 7 at 2834).
On March 17, 2010, Claimant complained that he
got out of breath, and that he could not work because
shortness of breath; he was diagnosed with “lung
hypoxia with exertion.” (EX 6 at 36-37). Pulmonary
function tests (EX 8 at 70) and arterial blood gas
studies (EX 8 at 72) were taken.
On August 23, 2010, Claimant’s lungs were clear
without rhonchi or wheeze. (EX 6 at 33-34). On
February 14, 2011, his respiratory function was normal
with no distress. (EX 7 at 8-12). On July 18, 2011, his

App. 113
lungs were clear without rhonchi or wheeze. (EX 6 at
26).
On August 23, 2012, Claimant underwent the DOLsponsored examination by Dr. Gagon (see DX 16; EX 8
at 45-48).
On February 9, 2013, his lungs showed “equal
breath sounds bilaterally” and were “clear to
auscultation and percussion.” (Ex 8 at 31, 36-39). His
respiratory function was positive for cough on February
12, 2013. (EX 8 at 19, 24-29). His lungs were clear on
March 18, May 8, May 28, June 19, July 8, and
December 16, 2013. (EX 6 at 12-18).
During a physical on June 3, 2013, Claimant
reported smoking a half-pack of cigarettes a day, and
had no asthma or COPD. (EX 8 at 9). On January 16,
2014, Claimant complained of shortness of breath with
some exertion and “some black lung.” (EX 9 at 5). He
was recorded as having a 21 pack-year smoking
history. (EX 9 at 5).
DISCUSSION
1. The Fifteen Year Presumption Applies to Mr.
Kourianos’s Claim
In claims filed after January 1, 2005, if the miner
was employed for fifteen or more years underground
and has a totally disabling respiratory or pulmonary
impairment, there is a rebuttable presumption that he
is totally disabled due to pneumoconiosis. 20 C.F.R.
§ 718.305. In order to invoke the presumption, the
Claimant must establish that he suffers from a totally

App. 114
disabling respiratory or pulmonary impairment. 20
C.F.R. §§ 718.204 and 718.305(b).
2. The Medical Opinion Evidence Establishes that
Mr. Kourianos Suffers from a Totally Disabling
Respiratory or Pulmonary Impairment
A miner will be considered “totally disabled” if:
the miner has a pulmonary or respiratory
impairment which, standing along, prevents . . .
the miner:
(i)

From performing his or her usual coal
mine work; and

(ii)

From engaging in gainful employment in
the immediate area of his or residence
requiring the skills or abilities
comparable to those of any employment in
a mine or mines . . . .

20 C.F.R. § 718.204(b)(1). Total disability may be
established by, among other means, pulmonary
function tests or arterial blood gas studies. 20 C.F.R.
§ 718.204(b)(2)(i)-(ii). If the pulmonary function tests
and/or blood gas studies do not yield qualifying values,
or are medically contraindicated, total disability may
be nevertheless found if a physician, exercising
reasoned medical judgment and based on medically
acceptable clinical and laboratory diagnostic
techniques, concludes that a miner’s respiratory or
pulmonary condition prevents or prevented him from
performing his usual coal mine work or comparable and
gainful work. 20 C.F.R. § 718.204(b)(2)(iv).

App. 115
I am to weigh all evidence relevant to total
disability at this stage. Bosco v. Twin Pines Coal Co.,
892 F.2d 1473, 1479 (10th Cir. 1989). I find that
Claimant has established by a preponderance of the
evidence that he is totally disabled. First, I find that
the pulmonary function tests and the arterial blood gas
studies yield equivocal results. Claimant underwent
both pulmonary function and arterial blood gas testing
in May 2010 and August 2012, and I give greater
weight to the more recent testing. Neither pulmonary
function yielded a value indicating total disability. The
arterial blood gas study taken in May 2010 also did not
yield a qualifying value. Finally, the arterial blood gas
studies taken in August 2012 did not yield a qualifying
value while Claimant was resting, but did yield a
qualifying value after exercise. I recognize that
pulmonary function tests and arterial blood gas studies
measure different types of pulmonary impairment, and
further recognize that coal workers’ pneumoconiosis
may manifest itself in different ways. See Tussey v.
Island Creek Coal Co., 982 F.2d 1036, 1040-41 (6th Cir.
1993); Sheranko v. Jones and Laughlin Steel Corp., 6
B.L.R. 1-797, 1798 (1984); Gurule v. Director, OWCP, 2
B.L.R. 1-772, 1-777 (1979). But after carefully
considering the evidence, and having given greater
weight to the more recent testing, I find that Claimant
has not carried his burden via this medical evidence
because the evidence is equivocal.
But I find that the medical opinion evidence does
establish that Claimant is totally disabled from
working as a fire boss. I give great weight to Dr.
Gagon’s opinion, because he is the only physician who
discussed (in his deposition) the specific duties

App. 116
Claimant performed as a fire boss. His opinion
regarding disability is well-documented and wellreasoned, and he was in a better position to determine
whether Claimant could exert the physical effort
required to perform a fire boss’s duties than the other
physicians. See Killman v. Director, OWCP, 415 F.3d
716, 722 (7th Cir. 2005).
I give little weight to Dr. Zaldivar’s and Dr. Selby’s
findings that Mr. Kourianos is not disabled. Neither
doctor’s finding was informed by details of Claimant’s
usual coal mine employment. Furthermore, Dr.
Zaldivar and Dr. Selby both stated in their reports and
testified at their depositions that the arterial blood gas
studies did not properly account for Price, Utah’s
altitude: because the test was conducted at a relatively
high altitude, they stated, and because PO2 values
could be expected to drop linearly as altitude increased,
the low PO2 value should not be considered to show
disability. Appendix C to 20 C.F.R. Part 718, however,
requires that administrative law judges analyze
arterial blood gas studies according to three ranges of
altitude: from sea level to 2,999 above sea level; from
3,000 to 5,999 above sea level; and over 6,000 feet
above sea level. The testing was performed in the
second range, from 3,000 to 5,999 feet above sea level.
The regulations do not contemplate further dividing
testing results into narrower ranges, nor am I
permitted to do so. Because Dr. Zaldivar’s and Dr.
Selby’s statements are inconsistent with the
regulations, I give their opinions regarding Claimant’s
disability little weight.

App. 117
3. Employer Has Not Rebutted the Presumption
that Mr. Kourianos Suffers from Pneumoconiosis
Because Mr. Kourianos has established that he was
totally disabled, he has triggered the presumption that
his totally disabling respiratory or pulmonary
impairment is due to pneumoconiosis. Thus the burden
shifts to the Respondent to demonstrate that Mr.
Kourianos did not have legal or clinical pneumoconiosis
(discussed in this section), or that Mr. Kourianos’s
totally disabling respiratory or pulmonary impairment
is wholly unrelated to pneumoconiosis (discussed in
Section 4 infra). 20 C.F.R. § 718.305.
The regulations define pneumoconiosis to include
not only “clinical” but also “legal” pneumoconiosis:
(a) For the purpose of the Act, “pneumoconiosis”
means a chronic dust disease of the lung and its
sequelae, including respiratory and pulmonary
impairments, arising out of coal mine
employment. This definition includes both
medical, or “clinical”, pneumoconiosis and
statutory, or “legal”, pneumoconiosis.
(1) Clinical Pneumoconiosis. “Clinical
pneumoconiosis” consists of those
diseases recognized by the medical
community as pneumoconioses, i.e., the
conditions characterized by permanent
deposition of substantial amounts of
particulate matter in the lungs and the
fibrotic reaction of the lung tissue to that
deposition caused by dust exposure in coal
mine employment. This definition

App. 118
includes, but is not limited to, coal
workers’
pneumoconiosis,
anthracosilicosis, anthracosis,
anthrosilicosis, massive pulmonary
fibrosis, silicosis or silico-tuberculosis,
arising out of coal mine employment.
(2) Legal Pneumoconiosis. “Legal
pneumoconiosis” includes any chronic
lung disease or impairment and its
sequelae arising out of coal mine
employment. This definition includes, but
is not limited to any chronic restrictive or
obstructive pulmonary disease arising out
of coal mine employment.
(b) For purposes of this section, a disease
“arising out of coal mine employment” includes
any chronic pulmonary disease or respiratory or
pulmonary impairment significantly related to,
or substantially aggravated by, dust exposure in
coal mine employment.
(c) For purposes of this definition,
“pneumoconiosis” is recognized as a latent and
progressive disease which may first become
detectable only after the cessation of coal mine
dust exposure.
20 C.F.R. § 718.201.
There is no evidence that Claimant suffers from
clinical pneumoconiosis, and Employer has rebutted
the presumption that he does so suffer.

App. 119
Dr. Gagon diagnosed chronic bronchitis caused in
part by exposure to coal dust (as well as cigarette
smoke)—i.e., legal pneumoconiosis. Dr. Zaldivar
diagnosed symptoms of bronchitis, but stated that if
Claimant did suffer from bronchitis, that it was caused
by smoking. Dr. Selby stated that Claimant’s
symptoms showed a “very strong presentation for the
diagnosis of asthma” unrelated to coal mining, and
stated “working in coal mines prohibits the inhalation
of cigarette smoking, thus actually protecting the
lungs.”
I give little weight to Dr. Gagon’s conclusion that
coal dust exposure and cigarette smoke equally
contributed to his respiratory condition, because his
diagnosis is conclusory and not well-documented.
I also give little weight to Dr. Zaldivar’s conclusion
that Claimant’s respiratory condition was caused solely
by smoking, for several reasons. First, Dr. Zaldivar
dismissed the notion that Claimant’s exposure to coal
dust might have led to his arterial blood gas study
results because “[c]onsidering that the chest x-ray is
normal and that the ventilatory study is normal, the
only abnormality that could explain this drop in the
PO2 would be a low diffusion capacity of a pulmonary
fibrosis or a bronchiolitis of a smoker.” Dr. Zaldivar’s
opinion implies that arterial blood gas studies alone
could not indicate the presence of coal workers’
pneumoconiosis, but that pneumoconiosis must be seen
via pulmonary function testing or x-rays—a position
inconsistent with the regulations. Second, Dr.
Zaldivar’s assertion that Claimant’s breathing
problems were caused by smoking and not by exposure

App. 120
to coal dust were based on an analysis of the general
population, and not on an analysis specific to the
miner: in finding that smoking and not coal dust
exposure caused the symptoms of bronchitis he
diagnosed, Dr. Zaldivar stated that “it is very
important to remember that coal miners are human
beings subject to all diseases and conditions of human
beings and are affected by habits such as smoking just
as the population at large is affected by it.” Because his
diagnosis is not specifically tied to Mr. Kourianos, I
give it little weight. See Consolidation Coal v. Director,
OWCP [Beeler], 521 F.3d 723 (7th Cir. 2008) (affirming
administrative law judge who discredited a doctor
because the doctor “did not rely on information
particular to [the miner] to conclude that smoking was
the only cause of his obstruction”).
I also give little weight to Dr. Selby’s finding that
Mr. Kourianos suffered from asthma, and that his
asthma was unrelated to his coal mining and
exacerbated by his smoking. First, Dr. Selby is the only
physician to have diagnosed asthma, and he provides
little basis for this differential diagnosis; his diagnosis
of asthma is not well-documented and is inconsistent
with the other medical evidence. Second, Dr. Selby’s
statement that “working in coal mines prohibits the
inhalation of cigarette smoking, thus actually
protecting the lungs” is contrary to the central purpose
and function of the Act. See 30 U.S.C. § 901(a); Roberts
& Schaefer Co. v. Director, OWCP [Williams], 400 F.3d
992, 999 (7th Cir. 2005) (affirming administrative law
judge’s discrediting of a doctor who stated that coal
mining had a “positive effect on [a miner’s] health”

App. 121
because it limited his smoking). For these reasons, I
give Dr. Selby’s opinion little weight.
The fifteen-year presumption shifts the burden to
Employer to rebut the presumption that Claimant
suffers from pneumoconiosis. I give little weight to any
of the medical opinions regarding the existence of
pneumoconiosis. Accordingly, I find that Employer has
failed to rebut the presumption that Mr. Kourianos
suffers from legal pneumoconiosis.
4. Employer Has Not Rebutted the Presumption
that Mr. Kourianos’s Disabling Respiratory or
Pulmonary Impairment Was Caused by
Pneumoconiosis
Employer may also rebut the presumption by
establishing that pneumoconiosis did not contribute to
Mr. Kourianos’s pulmonary disability. Here, however,
neither Dr. Zaldivar nor Dr. Selby diagnosed
pneumoconiosis, and Employer has pointed to no other
evidence to rebut the presumption that Mr. Kourianos’s
pneumoconiosis caused his total disability. Accordingly,
Employer has not rebutted the presumption that Mr.
Kourianos’s disabling respiratory or pulmonary
impairment was caused by pneumoconiosis.
5. Employer Has Not Rebutted the Presumption
that Mr. Kourianos’s Coal Mine Employment
Caused His Pneumoconiosis
The Act and the regulations provide for a rebuttable
presumption that pneumoconiosis arose out of coal
mine employment if a miner with pneumoconiosis was
employed in the mines for ten or more years. 30 U.S.C.
§ 921(c)(1); 20 C.F.R. § 718.203(b). Mr. Kourianos was

App. 122
employed as a miner for more than twenty-seven years,
and therefore is entitled to the presumption. Employer
has not offered evidence sufficient to rebut the
presumption. Indeed, Employer argues that Mr.
Kourianos did not suffer from pneumoconiosis at all,
and makes no argument in the alternative that the
disease has been caused by another source. Employer
has therefore failed to rebut the presumption that Mr.
Kourianos’s pneumoconiosis was caused by his coal
mine employment.
FINDINGS AND CONCLUSIONS REGARDING
ENTITLEMENT TO BENEFITS
1. Mr. Kourianos Is Entitled
Commencing in June 2012

to

Benefits

In the case of a miner who is totally disabled due to
pneumoconiosis, benefits commence with the month of
onset of total disability due to pneumoconiosis. Medical
evidence of total disability does not establish the date
of entitlement; rather, it shows that a claimant became
disabled at some earlier date. Owens v. Jewell
Smokeless Coal Corp., 14 BLR 1-47, 1-50 (1990). Where
the evidence does not establish the month of onset,
benefits begin with the month that the claim was filed
(unless the evidence establishes that the miner was not
totally disabled due to pneumoconiosis at any
subsequent time). 20 C.F.R. Part 725.503(b); Harris v.
Old Ben Coal Co., 23 BLR 1-98 (2006).
Because the evidence does not establish the month
of onset, I find that Mr. Kourianos is entitled to
benefits commencing with the month in which he filed
his claim: June 2012.

App. 123
2. Mr. Kourianos Has One Dependent for Purposes
of Augmentation
Per the parties’ stipulation, I find that for purposes
of augmentation Mr. Kourianos has one dependent, his
wife.
ORDER
Mr. Kourianos’s claim for benefits under the Act is
hereby GRANTED. Employer shall pay all benefits to
which Mr. Kourianos is entitled commencing in June
2012.
SO ORDERED.
[SEAL]
Digitally signed by PAUL R. ALMANZA
DN; CN=PAUL R. ALMANZA,
OU=ADMINISTRATIVE LAW JUDGE,
O=US DOL Office of Administrative Law
Judges, L=Washington, S=DC, C=US
Location: Washington DC
PAUL R. ALMANZA
Associate Chief Administrative Law Judge
Washington, D.C.
***
[Notice of Appeal Rights and Service Sheet
Omitted in the Printing of this Appendix]

App. 124

APPENDIX E
U.S. DEPARTMENT OF LABOR
Office of Administrative Law Judges
800 K Street, NW, Suite 400-N
Washington. DC 20001-8002
(202) 693-7300
(202) 693-7365 (FAX)
Case No. 2014-BLA-05171
[Filed April 12, 2016]
_________________________________________
In the Matter of:
)
)
TONY N. KOURIANOS,
)
Claimant,
)
)
v.
)
)
HIDDEN SPLENDOR RESOURCES,
)
INC.,
)
Employer,
)
)
and
)
)
ROCKWOOD CASUALTY INSURANCE
)
CO.,
)
Carrier,
)
)
and
)
)
DIRECTOR, OFFICE OF WORKERS’
)

App. 125
COMPENSATION PROGRAMS,
Party in Interest.
________________________________________

)
)
)

ORDER DENYING EMPLOYER’S MOTION TO
WITHDRAW STIPULATION AS RESPONSIBLE
OPERATOR AND TO DISMISS HIDDEN
SPLENDOR AS THE RESPONSIBLE
OPERATOR AND SUPPLEMENTAL
EVIDENTIARY ORDER AND
BRIEFING SCHEDULE
PROCEDURAL HISTORY
Claimant filed this claim for benefits in June 2012.
(DX 2). Hidden Splendor (“Employer”) filed an
Operator Response on November 1, 2012, contesting
whether Claimant was exposed to coal dust while
employed by Employer, and contesting whether
Claimant was employed by Employer as a coal miner
for at least one year. (DX 26). But on Nov. 30, 2012,
Employer filed an Amended Operator Response
accepting Responsible Operator (“R/O”) status. (DX 27).
Additionally, Employer sent to the District Director a
fax titled “Hire Dates for Tony Kourianos” on February
6, 2013, which stated that from November 2010 to
October 2011, Claimant worked both “in the mine” and
“outside at the Loadout.” (DX 11). Employer again
accepted R/O status on May 20, 2013, in its response to
Director’s Schedule for the Submission of Additional
Evidence (“SSAE”), (DX 29). The District Director
issued a Proposed Decision and Order on August 22,
2013, in which Employer was named the R/O.

App. 126
I held a formal hearing in this matter in Price,
Utah, on August l2, 2014. In light of Claimant’s
testimony at the hearing regarding the job duties he
performed for Employer, I permitted the parties to
brief the issue of whether Employer should be allowed
to withdraw its R/O stipulation. (Tr. at 71-72). On
October 15, 2014, I received Employer’s Brief in
Support of Its Motion to Withdraw Stipulation as
Responsible Operator and Motion to Dismiss Hidden
Splendor as the Responsible Operator (“Employer’s
Br.”). On October 29, 2014, I received the Office of
Workers’ Compensation Programs Director’s Response
to Employer’s Combined Post-Hearing Brief (“Director’s
Resp.”).
SECTION 725.463(11) BARS CONSIDERATION
OF THE R/O ISSUE
Employer argues that I should consider whether
Employer is the R/O in spite of its stipulation because
its R/O status became “became a ‘new issue’ following
[Claimant’s] testimony,” and as a new issue, it can be
considered by an ALJ pursuant to 20 C.F.R.
§ 725.463(b). (Employer’s Br. at 10).
Section 725.463(b) states, in part: “[a]n
administrative law judge may consider a new issue
only if such issue was not reasonably ascertainable by
the parties at the time the claim was before the district
director,” Employer argues that although it stipulated
to its R/O status, that:
[t]he R/O issue was not disputed at the District
Director level because the documentary evidence
submitted before Director supported a finding

App. 127
that Hidden Splendor was the correctly named
R/O for this claim. The written documentation
gave no indication that Mr. Kourianos was
anything but a coal miner during his tenure at
Hidden Splendor . . . . The Responsible Operator
designation became a “new issue” following Mr.
Kourianos’s testimony that his last stint at
Hidden Splendor was not as a miner, but as a
security guard on a closed mine and therefore,
§ 725.463(b) should be applied.
(Employer’s Br. at 10),
I find that the nature of Claimant’s employment
with Employer was “reasonably ascertainable” at the
time the claim was before the district director, and that
§ 725.463(b) therefore prohibits my consideration of the
R/O issue. The Benefits Review Board in Clevinger v.
Harman Mining Corp., No, 88-2575, slip op. at 3 (BRB
Aug. 18, 1992), held that an ALJ failed to follow
§ 725.463(b) when the ALJ dismissed the R/O based on
testimony at the hearing that claimant was not
employed as a miner after December 31, 1969, when
that issue was not controverted by the parties, and
when the nature of claimant’s employment was “easily
ascertainable” by the parties at the district director
level. In Pack v. Mingo Coal and Coke Co., No. 06-0562,
slip op. at 3-5 (BRB Apr. 26, 2007), the Board held that
an ALJ erred in considering as a “new issue” whether
a designated R/O was near financial insolvency based
on the R/O president’s hearing testimony when the
R/O’s insolvency was “readily apparent” from evidence
in the record, including admitted statements that the
R/O “owes more than [it] could possibly pay.”

App. 128
Here, Employer states that the “documentary
evidence” and “written documentation” before the
district director did not indicate that Claimant
performed work other coal mining when employed by
Hidden Splendor, and that his job duties only came to
light after his testimony hearing. While I appreciate
that Claimant’s testimony at the hearing concerning
his job duties for Employer came as a surprise, I note
that one significant piece of written documentation
related to the R/O issue, the “Hire Dates for Tony
Kourianos” fax (DX 11), was submitted by Employer.
Furthermore, this piece of evidence, which Employer
states in its brief was prepared by Employer’s “staff
accountant” (see Employer’s Br. at 4), distinguished
between the periods when Claimant worked “in the
mine” and “at the Loadout.” Thus, Employer might
have ascertained what job duties Claimant performed,
and thereby determined whether Hidden Splendor
should have been named the R/O, by interviewing its
own agent regarding the evidence it submitted.
Because Claimant’s employment history was
reasonably ascertainable based on evidence admitted
into the record by Employer at the time that this claim
was before the district director, I am prohibited by 20
C.F.R. § 725.463(b) from considering as a “new issue”
whether Employer should not be designated the R/O.
The Board has made it quite clear in Clevinger and
Pack that I would err if I were to find otherwise.
Accordingly, I will not consider the portion of
Employer’s brief arguing that it is not the R/O. For the
same reason—because it not relevant to any contested
issue, and is in fact an issue that I am prohibited by 20
C.F.R. § 725.463 from considering—I give no weight to

App. 129
Claimant’s testimony regarding his job duties insofar
as that testimony relates to Claimant’s R/O status.
SUPPLEMENTAL EVIDENTIARY ORDER AND
BRIEFING SCHEDULE
At the hearing I permitted the Director to submit
Dr. Gagon’ s supplemental report post-hearing, and
provided the Employer the opportunity to submit
rebuttal evidence or to depose Dr. Gagon. (Tr. at 30). I
note the parties’ cross-motions regarding admittance of
Dr. Gagon’s supplemental medical report, DX 39;
however, this issue appears to have been resolved by
Employer’s deposition of Dr. Gagon.
I further note Employer’s December 28, 2015 motion
to depose Dr. Gagon and to submit his deposition
testimony. On April 11, 2016, I received Employer’s
submission of Dr. Gagon’s deposition. I hereby admit
Dr. Gagon’s deposition as Employer’s Exhibit 12.
Accordingly, the record consists of the following and
is now closed:
• ALJ Exhibits 1-4;1
• Director’s Exhibits 1-39; and
• Employer’s Exhibits 1-12.
Finally, I note that the parties have yet to submit
post-hearing briefs on the merits of this claim. I ask
that the parties submit post-hearing briefs postmarked
no later than Friday, May 13, 2016. I anticipate

1

I designate the November 20, 2015 Evidentiary Order ALJ
Exhibit 3, and this Order ALJ Exhibit 4.

App. 130
issuing a Decision and Order in this matter within
thirty days after receiving the parties’ briefs.
SO ORDERED.
[SEAL]
Digitally signed by PAUL R. ALMANZA
DN; CN=PAUL R. ALMANZA,
OU=ADMINISTRATIVE LAW JUDGE,
O=US DOL Office of Administrative Law
Judges, L=Washington, S=DC, C=US
Location: Washington DC
PAUL R. ALMANZA
Associate Chief Administrative Law Judge
Washington, D.C.
***
[Service Sheet Omitted in the
Printing of this Appendix]

App. 131

APPENDIX F
20 C.F.R. § 725.101 Definition and use of terms.
(a) Definitions. For purposes of this subchapter, except
where the content clearly indicates otherwise, the
following definitions apply:
***
(32) Year means a period of one calendar year (365
days, or 366 days if one of the days is February 29), or
partial periods totaling one year, during which the
miner worked in or around a coal mine or mines for at
least 125 “working days.” A “working day” means any
day or part of a day for which a miner received pay for
work as a miner, but shall not include any day for
which the miner received pay while on an approved
absence, such as vacation or sick leave. In determining
whether a miner worked for one year, any day for
which the miner received pay while on an approved
absence, such as vacation or sick leave, may be counted
as part of the calendar year and as partial periods
totaling one year.
(i) If the evidence establishes that the miner worked in
or around coal mines at least 125 working days during
a calendar year or partial periods totaling one year,
then the miner has worked one year in coal mine
employment for all purposes under the Act. If a miner
worked fewer than 125 working days in a year, he or
she has worked a fractional year based on the ratio of
the actual number of days worked to 125. Proof that

App. 132
the miner worked more than 125 working days in a
calendar year or partial periods totaling a year, does
not establish more than one year.
(ii) To the extent the evidence permits, the beginning
and ending dates of all periods of coal mine
employment must be ascertained. The dates and length
of employment may be established by any credible
evidence including (but not limited to) company
records, pension records, earnings statements,
coworker affidavits, and sworn testimony. If the
evidence establishes that the miner’s employment
lasted for a calendar year or partial periods totaling a
365-day period amounting to one year, it must be
presumed, in the absence of evidence to the contrary,
that the miner spent at least 125 working days in such
employment.
(iii) If the evidence is insufficient to establish the
beginning and ending dates of the miner’s coal mine
employment, or the miner’s employment lasted less
than a calendar year, then the adjudication officer may
use the following formula: divide the miner’s yearly
income from work as a miner by the coal mine
industry’s average daily earnings for that year, as
reported by the Bureau of Labor Statistics (BLS). A
copy of the BLS table must be made a part of the record
if the adjudication officer uses this method to establish
the length of the miner’s work history.
(iv) Periods of coal mine employment occurring outside
the United States must not be considered in computing
the miner’s work history.
***

App. 133
20 C.F.R. § 725.408 Operator’s response to
notification.
(a)(1) An operator which receives notification under
§725.407 shall, within 30 days of receipt, file a response
indicating its intent to accept or contest its
identification as a potentially liable operator. The
operator’s response shall also be sent to the claimant
by regular mail.
(2) If the operator contests its identification, it shall, on
a form supplied by the district director, state the
precise nature of its disagreement by admitting or
denying each of the following assertions. In answering
these assertions, the term “operator” shall include any
operator for which the identified operator may be
considered a successor operator pursuant to §725.492.
(i) That the named operator was an operator for any
period after June 30, 1973;
(ii) That the operator employed the miner as a
miner for a cumulative period of not less than one year;
(iii) That the miner was exposed to coal mine dust
while working for the operator;
(iv) That the miner’s employment with the operator
included at least one working day after December 31,
1969; and
(v) That the operator is capable of assuming liability
for the payment of benefits.
(3) An operator which receives notification under
§725.407, and which fails to file a response within the
time limit provided by this section, shall not be allowed

App. 134
to contest its liability for the payment of benefits on
any of the grounds set forth in paragraph (a)(2).
(b)(1) Within 90 days of the date on which it receives
notification under § 725.407, an operator may submit
documentary evidence in support of its position.
(2) No documentary evidence relevant to the grounds
set forth in paragraph (a)(2) may be admitted in any
further proceedings unless it is submitted within the
time limits set forth in this section.
20 C.F.R. § 725.410 Submission of additional
evidence.
***
(b) The schedule shall allow all parties not less than 60
days within which to submit additional evidence,
including evidence relevant to the claimant’s eligibility
for benefits and evidence relevant to the liability of the
designated responsible operator, and shall provide not
less than an additional 30 days within which the
parties may respond to evidence submitted by other
parties. Any such evidence must meet the
requirements set forth in § 725.414 in order to be
admitted into the record.
***
20 C.F.R. § 725.412 Operator’s response.
(a)(1) Within 30 days after the district director issues
a schedule pursuant to §725.410 of this part containing
a designation of the responsible operator liable for the

App. 135
payment of benefits, that operator shall file a response
with regard to its liability. The response shall
specifically indicate whether the operator agrees or
disagrees with the district director’s designation.
(2) If the responsible operator designated by the district
director does not file a timely response, it shall be
deemed to have accepted the district director’s
designation with respect to its liability, and to have
waived its right to contest its liability in any further
proceeding conducted with respect to the claim.
(b) The responsible operator designated by the district
director may also file a statement accepting claimant’s
entitlement to benefits. If that operator fails to file a
timely response to the district director’s designation,
the district director shall, upon receipt of such a
statement, issue a proposed decision and order in
accordance with §725.418 of this part. If the operator
fails to file a statement accepting the claimant’s
entitlement to benefits within 30 days after the district
director issues a schedule pursuant to § 725.410 of this
part, the operator shall be deemed to have contested
the claimant’s entitlement.
20 C.F.R. § 725.414 Development of evidence.
(b) Evidence pertaining to liability. (1) Except as
provided by §725.408(b)(2), the designated responsible
operator may submit evidence to demonstrate that it is
not the potentially liable operator that most recently
employed the claimant.

App. 136
(2) Any other party may submit evidence regarding the
liability of the designated responsible operator or any
other operator.
(3) A copy of any documentary evidence submitted
under this paragraph must be mailed to all other
parties to the claim. Following the submission of
affirmative evidence, the parties may submit rebuttal
evidence in accordance with the schedule issued by the
district director.
20 C.F.R. § 725.463 Issues to be resolved at
hearing; new issues.
(a) Except as otherwise provided in this section, the
hearing shall be confined to those contested issues
which have been identified by the district director (see
§725.421) or any other issue raised in writing before
the district director.
(b) An administrative law judge may consider a new
issue only if such issue was not reasonably
ascertainable by the parties at the time the claim was
before the district director. Such new issue may be
raised upon application of any party, or upon an
administrative law judge’s own motion, with notice to
all parties, at any time after a claim has been
transmitted by the district director to the Office of
Administrative Law Judges and prior to decision by an
administrative law judge. If a new issue is raised, the
administrative law judge may, in his or her discretion,
either remand the case to the district director with
instructions for further proceedings, hear and resolve
the new issue, or refuse to consider such new issue.

App. 137
(c) If a new issue is to be considered by the
administrative law judge, a party may, upon request,
be granted an appropriate continuance.
20 C.F.R. § 725.495 Criteria for determining a
responsible operator.
(a)(1) The operator responsible for the payment of
benefits in a claim adjudicated under this part (the
“responsible operator”) shall be the potentially liable
operator, as determined in accordance with §725.494,
that most recently employed the miner.
(2) If more than one potentially liable operator may be
deemed to have employed the miner most recently,
then the liability for any benefits payable as a result of
such employment shall be assigned as follows:
(i) First, to the potentially liable operator that
directed, controlled, or supervised the miner;
(ii) Second, to any potentially liable operator that
may be considered a successor operator with respect to
miners employed by the operator identified in
paragraph (a)(2)(i) of this section; and
(iii) Third, to any other potentially liable operator
which may be deemed to have been the miner’s most
recent employer pursuant to §725.493.
(3) If the operator that most recently employed the
miner may not be considered a potentially liable
operator, as determined in accordance with §725.494,
the responsible operator shall be the potentially liable
operator that next most recently employed the miner.
Any potentially liable operator that employed the

App. 138
miner for at least one day after December 31, 1969 may
be deemed the responsible operator if no more recent
employer may be considered a potentially liable
operator.
(4) If the miner’s most recent employment by an
operator ended while the operator was authorized to
self-insure its liability under part 726 of this title, and
that operator no longer possesses sufficient assets to
secure the payment of benefits, the provisions of
paragraph (a)(3) shall be inapplicable with respect to
any operator that employed the miner only before he
was employed by such self-insured operator. If no
operator that employed the miner after his employment
with the self-insured operator meets the conditions of
§725.494, the claim of the miner or his survivor shall be
the responsibility of the Black Lung Disability Trust
Fund.
(b) Except as provided in this section and
§725.408(a)(3), with respect to the adjudication of the
identity of a responsible operator, the Director shall
bear the burden of proving that the responsible
operator initially found liable for the payment of
benefits pursuant to § 725.410 (the “designated
responsible operator”) is a potentially liable operator.
It shall be presumed, in the absence of evidence to the
contrary, that the designated responsible operator is
capable of assuming liability for the payment of
benefits in accordance with §725.494(e).
(c) The designated responsible operator shall bear
the burden of proving either:

App. 139
(1) That it does not possess sufficient assets to
secure the payment of benefits in accordance with
§725.606; or
(2) That it is not the potentially liable operator
that most recently employed the miner. Such proof
must include evidence that the miner was employed as
a miner after he or she stopped working for the
designated responsible operator and that the person by
whom he or she was employed is a potentially liable
operator within the meaning of §725.494. In order to
establish that a more recent employer is a potentially
liable operator, the designated responsible operator
must demonstrate that the more recent employer
possesses sufficient assets to secure the payment of
benefits in accordance with §725.606. The designated
responsible operator may satisfy its burden by
presenting evidence that the owner, if the more recent
employer is a sole proprietorship; the partners, if the
more recent employer is a partnership; or the
president, secretary, and treasurer, if the more recent
employer is a corporation that failed to secure the
payment of benefits pursuant to part 726 of this
subchapter, possess assets sufficient to secure the
payment of benefits, provided such assets may be
reached in a proceeding brought under subpart I of this
part.
(d) In any case referred to the Office of Administrative
Law Judges pursuant to §725.421 in which the
operator finally designated as responsible pursuant to
§ 725.418(d) is not the operator that most recently
employed the miner, the record shall contain a
statement from the district director explaining the

App. 140
reasons for such designation. If the reasons include the
most recent employer’s failure to meet the conditions of
§725.494(e), the record shall also contain a statement
that the Office has searched the files it maintains
pursuant to part 726, and that the Office has no record
of insurance coverage for that employer, or of
authorization to self-insure, that meets the conditions
of §725.494(e)(1) or (e)(2). Such a statement shall be
prima facie evidence that the most recent employer is
not financially capable of assuming its liability for a
claim. In the absence of such a statement, it shall be
presumed that the most recent employer is financially
capable of assuming its liability for a claim.

App. 141

APPENDIX G
3266 South 125 West
Price, UT 84501-4462
Phone: 435-636-0520
Fax: 435-636-0817

Hidden Splendor
Resources, Inc.

Fax
To:

Department of
Labor
Federal Black
Lung Program
Attention:
Theresa Hobbs
720-264-3110

From: George L.
Kontgas
Senior Staff
Accountant

Fax:
Pages: 1 Including Cover
Phone:
Date: February 6, 2013
Re:
Hire Dates for
cc:
Tony Kourianos

G Urgent G For Review G Please Comment
G Please Reply G Please Recycle
! Comments:
December 26, 2006 to April 11, 2007 – In the Mine
November 16, 2010 to January 21, 2011 – In the Mine

App. 142
April 5, 2011 to October 14, 2011 – Outside at the
Loadout
RECEIVED
US DEPT OF LABOR
FEB 03 2013
BLACK LUNG PROGRAM
DENVER CO

DIRECTOR’S EXB. NO. 11
CONSISTING OF 2 PAGES

App. 143

APPENDIX H

Pulmonary Function Study Testing Results
(May 6, 2010)
[Fold-Out Exhibit, see next page]

App. 144

APPENDIX I
Arterial Blood Gas Testing Results
(August 23, 2012)
[Fold-Out Exhibit, see next page]

App. 145

APPENDIX J
U.S. DEPARTMENT OF LABOR
Office of Workers’ Compensation
Division of Coal Mine Workers’ Compensation
PO Box 25603
Denver, CO 80225-0603
Phone: 1-800-366-4612
FAX: (720) 264-3110
NOTICE OF CLAIM
Date Issued: October 23, 2012
Miner’s Name: Tony N Kourianos
Claimant’s Name/Address Claim Number
Tony N Kourianos
974 N Smith Dr
Price, UT 84501-1854
Potentially Liable
Operator/Address

XXX-XX-7452 LM C

Hidden Splendor
Resources Inc
3266 South 125 West
Price, UT 84501

Rockwood Casualty
Insurance Co
654 Main St
Rockwood, PA 15557

Insurance
Carrier/Address

Policy Number:
WC455592

App. 146
The claimant named above has filed a claim for
benefits under the Black Lung Benefits Act, 30 U.S.C.
901 et seq. We are currently developing the claim to
determine the claimant’s eligibility. Enclosed is a copy
of the claimant’s application and any evidence OWCP
has obtained to date relating to the miner’s
employment.
This Notice of Claim is issued pursuant to 20 C.F.R.
725.407. We have identified you as a ‘potentially liable
operator’ in this claim. A “potentially liable operator” is
an employer of the miner (or a successor of an employer
pursuant to 20 C.F.R. 725.492) who may be held liable
for the payment of benefits should the claimant be
found entitled to them. Designation as a potentially
liable operator does not constitute a determination that
you are in fact liable. Where OWCP’s records indicate
you obtained a policy of insurance, and the claim falls
within such policy, we are sending a copy of this notice
to your insurer. You and your insurer shall be
considered parties to the claim unless an adjudication
officer dismisses you and you are not thereafter notified
again of your potential liability.
Within 30 days of receipt of this Notice of Claim,
you (or your insurer) must file a response
pursuant to 20 C.F.R. 725.408 indicating your
intent to accept or contest your identification as
a potentially liable operator. This time period may
be extended for good cause shown if you file an
extension request with the District Director prior to
expiration of the 30 days. We have enclosed a form
entitled ‘Operator Response to Notice of Claim’ for your
use. Please send your response and any other

App. 147
correspondence to the Office of Workers’ Compensation
Programs, Division of Coal Mine Workers’
Compensation, at the address shown above.
If you accept liability for the payment of benefits
should the claimant obtain an award (i.e. you accept
that you are the ‘responsible operator’), please mark
the box in Section A (entitled ‘Acceptance of Liability’)
on the Operator Response to Notice of Claim.
Accepting liability means only that you are the
operator liable for the payment of any benefits
due; it does not constitute a stipulation or
admission that the claimant is entitled to
benefits.
If you wish to contest your status as a potentially liable
operator, you must state the precise nature of your
disagreement by accepting or denying each of the five
assertions listed in Section B (entitled ‘Contest of
Potential Liability – Operator Assertions) on the
Operator Response to Notice of Claim. The assertions
are limited to information about your employment of
the miner and your status as an operator. If you deny
any of the five operator assertions, you have 90 days
from your receipt of this notice to submit documentary
evidence in support of your response. This time period
may be extended for good cause shown if you file an
extension request with the District Director prior to
expiration of the 90 days. Absent extraordinary
circumstances, no documentary evidence
relevant to the assertions set forth in 20 C.F.R.
725.408(a)(2) (reiterated in Section B of the
Operator Response to Notice of Claim) may be
admitted in any further proceedings unless it is

App. 148
submitted within 90 days of your receipt of this
notice or an extended period authorized by the
District Director.
If you do not respond within 30 days of your
receipt of this Notice of Claim, you will not be
allowed to contest your liability for payment of
benefits on any of the grounds set forth in 20
C.F.R. 725.408(a)(2) (reiterated in Section B of the
Operator Response to Notice of Claim).
Please note that your response need not include
evidence about any other potentially liable
operator and its employment of the miner. At the
conclusion of the initial evidence-gathering period, the
District Director will issue a Schedule for the
Submission of Additional Evidence pursuant to 20
C.F.R. 725.410. In that schedule, the District Director
will select and designate one “responsible operator”
from the potentially liable operators notified. All
parties will then be given an opportunity to present
evidence regarding the liability of the designated
responsible operator or any other operator.
NOTE: THE ‘OPERATOR RESPONSE TO NOTICE
OF CLAIM’ MUST INCLUDE THE ORIGINAL
SIGNATURE OF AN AUTHORIZED OFFICIAL
FOR
THE
POTENTIALLY
LIABLE
RESPONSIBLE OPERATOR OR ITS INSURANCE
CARRIER. WE CANNOT ACCEPT A COPY OF
THE RESPONSE SENT BY FAX IN LIEU OF THE
ORIGINAL DOCUMENT.

App. 149
We are available to assist you with this process. I may
be contacted at the address and telephone number
shown above.
Sincerely,
/s/Mark C Helfrich
Mark C Helfrich
Claims Examiner
Enclosures: Copy of claim and evidence relating to
miner’s employment history Operator
Response to Notice of Claim form (Form
No. CM-2970a)
[Proof of Service Omitted in the
Printing of this Appendix]

App. 150

APPENDIX K

Pulmonary Function Study Testing Results
(August 23, 2012)
[Fold-Out Exhibit, see next page]

